<html>
<title> - ASSESSING U.S. POLICY TOWARDS BURMA:. GEOPOLITICAL, ECONOMIC, AND HUMANITARIAN CONSIDERATIONS</title>
<body><pre>[Senate Hearing 115-659]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-659

        INSERT TITLE HEREASSESSING U.S. POLICY TOWARDS BURMA:
             INSERT TITLE HEREGEOPOLITICAL, ECONOMIC, AND
             INSERT TITLE HEREHUMANITARIAN CONSIDERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION
                             
                               __________

                 INSERT DATE HERE deg.OCTOBER 24, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-332 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8c8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>                                 
                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     3
Murphy, W. Patrick, Deputy Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, U.S. Department of State, 
  Washington, DC.................................................     5
Storella, Hon. Mark C., Deputy Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State, 
  Washington, DC.................................................    11
    Joint Prepared statement of Mr. Murphy and Ambassador 
      Storella...................................................     6
Somvongsiri, V. Kate, Acting Deputy Assistant Administrator, 
  Bureau for Democracy, Conflict, and Humanitarian Assistance, 
  U.S. Agency for International development, Washington, DC......    12
    Prepared statement...........................................    14

              Additional Material Submitted for the Record

Responses to Additional Questions for the Record Submitted by 
  Members of the Committee to:

    Hon. Mark Storella by Senator Marco Rubio....................    37
    Hon. Mark Storella and W. Patrick Murphy by Senator Benjamin 
      L. Cardin..................................................    40
    Hon. Mark Storella by Senator Robert Menendez................    42
    Hon. Mark Storella by Senator Jeff Merkley...................    44
    Hon. Mark Storella by Senator Cory A. Booker.................    45
    Ms. V. Kate Somvongsiri by Senator Benjamin L. Cardin........    45
    Ms. V. Kate Somvongsiri by Senator Robert Menendez...........    48

                                Annexes

Annex I.--Statement Submitted by Amnesty International, October 
  23, 2017.......................................................    51
Annex II.--``My World Is Finished,'' Rohingya Targeted in Crimes 
  Against Humanity in Myanmar....................................    55
Annex III.--Myanmar: New Landmine Blasts Point to Deliberate 
  Targeting of Rohingya..........................................   103
Annex IV.--Human Rights Watch: Crimes Against Humanity by Burmese 
  Security Forces Against the Roghingya Muslim Population in 
  Northern Rakhine State Since August 25, 2017...................   107
Annex V.--Satellite-Based Damage Assessment of Maungdaw, 
  Bithidaung and Rathedaung Townships (25 August-25 September 
  2017)..........................................................   119
Annex VI.--Human Rights Watch: Images of Wounded Rohingya in 
  Myanmar........................................................   127
Annex VII.--Statement Submitted by John Sifton, Asia Advocacy 
  Director, Human Rights Watch...................................   141
Annex VIII.--Testimony of Witnesses to Crimes Against Humanity in 
  Myanmar........................................................   149
Annex IX.--Mission Report of OHCHR Rapid Response Mission to 
  Cox's Bazar, Bangladesh (13-24 September 2017).................   163



                             (iii)        

 
                  ASSESSING U.S. POLICY TOWARDS BURMA:.
                      GEOPOLITICAL, ECONOMIC, AND
                      HUMANITARIAN CONSIDERATIONS

                              ----------                              


                       TUESDAY, OCTOBER 24, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Gardner, 
Young, Cardin, Shaheen, Murphy, Kaine, Markey, Merkley, and 
Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I want to thank each of you for being here. We thank you. 
It is very timely.
    In 2009, the Obama administration shifted the direction of 
U.S.-Burma policy, taking a leap of faith that an approach 
combining engagement and pressure would help usher in 
democratic reform where sanctions alone had failed. Although 
many were skeptical of such a shift, Burma's 2010 elections 
provided an opportunity to test the credibility of a more 
proactive engagement approach.
    And in the ensuing years, the United States worked to 
balance engagement with the military junta and the democratic 
grassroots movement. Undoubtedly, this engagement strategy had 
a positive effect on the trajectory of Burma's democratic 
reforms, including the 2015 election that brought the 
democratic opposition to power.
    And while the 2015 election was historic, Burma's 
democratic transition has been a work in progress. Along with 
its complex ethnic and cultural history, the Burmese military 
continues to control key ministries and large swaths of the 
economy, which is why there was some concern in 2016 when the 
Obama administration unilaterally rolled back most of the 
restrictions on U.S. engagement with Burma.
    A year into this new policy, the question is was this too 
soon. The Burmese economy remains weak, and projected flows of 
U.S. investment have not materialized. Human rights regulations 
are untouched. Structural reforms have not progressed, and the 
peace progress is stagnant.
    In recent weeks, we have also witnessed the appalling 
images of atrocities being committed by the Burmese military 
against the Rohingya minority. Hundreds of men and women and 
children systematically killed, hundreds of thousands of people 
fled as their homes burned.
    We continue to hear the truly heartbreaking accounts of 
human suffering. International frustration at the Burmese 
Government's failure to protect such atrocities is even more 
heightened given decades of hopes staked upon the de facto 
leader, Ms. Aung San Suu Kyi. Of course, our first priority 
must remain the humanitarian situation, including a half a 
million men, women, and children who fled to Bangladesh.
    I also think we should not shy away from an honest 
assessment of the direction of U.S. policy towards Burma. Last 
year, I raised specific concerns with Ms. Suu Kyi about her 
government's treatment of the Rohingya, one of the most 
vulnerable populations to human traffickers around the world. 
And I publicly shared my shock and dismay at her dismissiveness 
of these concerns, an attitude she has maintained even in the 
face of an unfolding humanitarian crisis and mounting 
international criticism. Her failure to acknowledge the 
seemingly systematic campaign of brutality by the Burmese 
military continues to undermine the civilian and Burma's 
democratic transition as a whole. The United States should not 
abandon Burma. However, it may be time for a policy adjustment.
    I hope to have a candid conversation here today about the 
trajectory of current U.S. policy towards Burma, including the 
role that Congress can play in encouraging democratic reform 
and addressing humanitarian efforts.
    I want to thank you again for being here.
    I think it is Merkley's birthday today. Is that right?
    Senator Merkley. Yes, Mr. Chairman. I cannot believe I am a 
year older.
    The Chairman. I could tell that you were not paying 
attention to my opening statement, and I just want to know if 
you would listen.
    And I understand you are getting ready to take also a CODEL 
to Burma. Is that correct?
    Senator Merkley. We are certainly hoping to put that 
together. I would like to invite all the members of the 
committee to join us.
    The Chairman. To our distinguished ranking member, Senator 
Cardin. Thank you.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, to Senator Merkley, first of all, 
happy birthday. And you really know where to go to celebrate a 
birthday. So we appreciate your willingness to take that trip.
    Mr. Chairman, thank you so much for holding this hearing.
    Now it is Burma, another country that is committing ethnic 
cleansing, another country under the watch of the international 
community that is allowed to perpetrate an atrocity. Make no 
mistake about it. Atrocities are taking place in Burma. We have 
a humanitarian crisis. We have perpetrators who expect 
impunity, and there is no reason to doubt that in fact that 
may, in fact, occur.
    This is ethnic cleansing. I know that the administration is 
evaluating that as we are holding this hearing. Ethnic 
cleansing, as defined by the United Nations Commission of 
Experts, is ``rendering an area ethnically homogeneous by using 
force or intimidation to remove persons of given groups from an 
area.'' Half of the population of the Rohingyas in Burma have 
left, 600,000 out of 1.2 million. There has been a systematic 
burning of their villages.
    This did not just start. It has been a campaign that has 
gone on for a long period of time since the 1982 law denies 
them citizenship even though they have been residents for 
generations. They are denied freedom of movement. They are 
denied freedom of education. They are denied health care. This 
has been a systematic effort to destroy an ethnic community.
    And once again, we see this happening, and once again, the 
expectation is, well, it is far away. We will just let it go 
along.
    We got to be outraged about what is happening. We need to 
see the international community come together and say, no, we 
will not let this continue, that we hold those accountable that 
are responsible, that we will provide the humanitarian need 
immediately, that we will stop this type of conduct in a 
civilized society. It cannot occur.
    Yes, I think it is genocide. I know there will be some 
discussion about it, whether it is genocide or not. 
Deliberately inflicting on the group conditions of life 
calculated to bring about its physical destruction in whole or 
in part. That is what is happening. They are trying to destroy 
the population. People are arguing intent. What else are they 
doing this for other than the purity of their country and their 
lack of tolerance for a minority population?
    For decades, the Burmese Government has systematically 
oppressed the Rohingya people. That is the fact. And they have 
deliberately failed to integrate the population into the 
general population.
    As U.N. High Commissioner of Human Rights Zeid correctly 
stated, the decades of persistent and systematic human rights 
violations have almost certainly contributed to the nurturing 
of violent extremism with everyone ultimately losing. They 
complain about extremism. They are creating it.
    In my opinion, we are witnessing a military-sponsored 
ethnic cleansing campaign on the Rohingya, and it will take 
significant engagement from the international community at the 
highest levels, in partnership with the Burmese civilian, to 
address and to hold perpetrators accountable for these horrific 
acts.
    Unfortunately, the Rohingya crisis is not the only vexing 
challenge Burma faces. The Burmese military continues to hold 
significant influence in politics and in the economy. The peace 
process, which we sought to end the longstanding civil war in 
the country, has stalled. There are significant reports of 
human rights issues such as human trafficking, free speech 
infringement, and political repression.
    The chairman is right. The State Counsellor was here. She 
is an impressive person, but she is not taking on the 
challenge. She is not responding to the crisis in her own 
country. The military controls Burma today. That is 
unacceptable. That is why we imposed sanctions because of 
military control. Sanction relief was given for what? So people 
can be ethnically cleansed?
    I agree with the chairman. We need to not only reevaluate. 
We need to have a policy in regards to Burma that we 
understand, that addresses these human rights violations, that 
reevaluates our position as far as having normal relations with 
Burma and the release of our sanctions.
    The President will be attending the ASEAN summit very 
shortly. Will he be mentioning Burma and human rights as a top 
priority during this trip? I certainly hope so.
    And, Mr. Chairman, I do want to compliment the Bangladesh 
Government for keeping the borders open. That has been one 
bright spot. But there is a humanitarian crisis of the refugees 
in Bangladesh that we all have to respond to.
    So I am looking forward to hearing from our witnesses. I 
thank each of them. They all have very distinguished records, 
and I have great confidence in their expertise on the subject. 
But I do notice that on a subject as important as this, it 
would be nice to have at least one witness that was confirmed 
by the Senate that brings that degree of importance from the 
administration on this subject.
    And lastly, I would ask consent that numerous statements 
from NGOs about this situation be made part of the record.
    The Chairman. Without objection.


    [The information referred to above is located at the end of 
this hearing transcript.]]


    The Chairman. Senator Cardinb, thank you for your strong 
opening statement. You and I were together I guess at Vice 
President Biden's home when it was very evident that the 
titular head, if you will, of the country just was very 
dismissive as it relates to this whole group of people.
    Senator Cardin. Particularly on the trafficking issue, 
which I remember you brought up, there was no reality at all 
that was going on.
    The Chairman. Our first witness is Mr. Patrick Murphy, 
Deputy Assistant Secretary for the Bureau of East Asian and 
Pacific Affairs at the Department of State. Thank you, sir, for 
your service.
    Our second witness today is Mr. Mark Storella, Deputy 
Assistant Secretary for the Bureau of Population, Refugees, and 
Migration at the Department of State. Thank you for your 
service, sir.
    Our third witness is Ms. Kate Somvongsiri. That was an 
approving smile. I did that correctly. Thank you. Acting Deputy 
Assistant Administrator for the Bureau for Democracy, Conflict, 
and Humanitarian Assistance at the U.S. Agency for 
International Development. Thank you for your service.
    If each of you could summarize in about 5 minutes, any 
written materials you have will be entered into the record, 
without objection. We thank you again for your service and 
helping us with this difficult issue. And if you would just go 
in the order introduced, that would be great. Thank you.

  STATEMENT OF W. PATRICK MURPHY, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Murphy. Chairman Corker, Ranking Member Cardin, 
distinguished members of the committee, Burma has emerged from 
a decades-long struggle to defy authoritarian rule and to 
transition to a democratic society. However, a devastating 
humanitarian crisis in Rakhine State has exacerbated the 
suffering of ethnic Rohingya and other populations and 
threatened this otherwise peaceful transition, as do other 
longstanding challenges that the elected authority, civilian 
authority, inherited a mere 16 months ago.
    Although the new is committed to ending conflicts and 
improving the prospects for all the diverse populations of 
Burma, today's hearing illuminates the fragility of this 
democratic transition.
    On August 25th, Rohingya militant attacks on Burmese 
security forces and subsequent violence and massive 
displacement occasioned by the military's disproportionate 
response have created a crisis that demands our undivided 
attention. Our efforts seek to end the violence, support the 
displaced and their return home, obtain accountability for 
atrocities, and address the perennial conditions that sparked 
this most recent, colossal population movement of over 600,000 
people to Bangladesh and several hundred thousands internally.
    President Trump has discussed the situation with other 
leaders. Secretary Tillerson called State Counsellor Aung San 
Suu Kyi to reaffirm support for the emerging democracy and 
towards action on this crisis. Vice President denounced the 
military's heavy-handed response at the U.N., where Ambassador 
Haley called for an international role in ending the violence. 
Our Ambassador in Burma has engagedand military leaders. I 
visited Burma since the start of this crisis, including Rakhine 
State, and met with Aung San Suu Kyi, other government and 
military figures, and displaced populations.
    We have consulted with many countries, including Burma's 
ASEAN neighbors. Our collective message to Burma stakeholders 
is clear: end the violence, protect civilians, expand 
humanitarian and media access, hold those guilty accountable, 
repatriate safely those who have fled, and cooperate with the 
international community. We have also encouraged collaboration 
between Burma and Bangladesh and Burma's coordination with U.N. 
agencies to overcome mistrust and missed opportunities for 
international help.
    Although the crisis persists, our engagement is yielding 
some results. On October 12th, Aung San Suu Kyi laid out goals 
for repatriation and humanitarian assistance, resettlement, and 
peace and development. We are engaging with her government to 
implement its commitments to reach these goals. Burma recently 
sent a senior official to Bangladesh to discuss return of 
refugees to Burma and more senior contact is scheduled this 
week.
    A top U.N. official visited Burma last week to address the 
U.N. response to the humanitarian and human rights aspects of 
the crisis.
    I traveled to Singapore, Thailand, and Vietnam. Other 
senior U.S. Government officials have engaged across the 
region, building support for constructive diplomatic 
engagement. We welcome ASEAN's decision to activate its own 
humanitarian assistance mechanism for Rakhine State.
    As we engage Burmese stakeholders and others, we know that 
a prerequisite to repatriation is assurances of security. 
Accordingly, the Department of State has identified and 
announced new and ongoing actions to pursue accountability for 
those who have committed violence including, among other 
measures, suspending travel waivers for military leaders, 
assessing JADE Act authorities to consider economic options 
available to target individuals associated with atrocities, 
finding that all units and officers involved in operations in 
northern Rakhine State are, pursuant to the Leahy law, 
ineligible for U.S. assistance programs, rescinding invitations 
for Burmese security leaders to attend U.S.-sponsored events, 
maintaining an embargo on military sales, consulting on 
accountability options at the U.N., the Human Rights Council, 
and other venues, pressing for access for the U.N. fact-finding 
mission, and exploring accountability mechanisms under U.S. 
law, including global Magnitsky targeted sanctions.
    While our immediate efforts must focus on the crisis, 
failure to address the long-term causes of instability in 
Rakhine State will only result in a future replay of this 
tragedy. It is thus crucial that we support Burma in 
implementing the recommendations of the Rakhine Advisory 
Commission led by former U.N. Secretary-General Kofi Annan to 
address under-development, shortcomings in services, access to 
justice, and a citizenship process for all people in Rakhine 
State.
    An emerging democracy of 54 million people, Burma is 
located between China and India. The country's success is 
important to us, to Burma's diverse populations, and to the 
region. Burma's longer-term viability depends on civilian 
control over the armed forces and other reforms to end violence 
and the potential for international terrorism, the very 
ingredients associated with the current crisis and other 
ongoing conflicts.
    We must also find ways to support those courageous voices 
within government and society who seek a better future. In 
doing so, we look to partner with Congress on Burma, as we have 
done across successive administrations for decades.
    Mr. Chairman, we thank this committee for its leadership 
and bipartisanship collaboration.

    [Mr. Murphy's and Ambassador Storella's joint prepared 
statement follows:]


      Prepared Statement of W. Patrick Murphy and Mark C. Storella

    Chairman Corker, Ranking Member Cardin, distinguished members of 
the committee, we appreciate the invitation to appear before you today 
to testify on the devastating human tragedy that continues to unfold in 
Burma's troubled and complicated Rakhine State. Violence and insecurity 
have exacerbated the longstanding suffering of ethnic Rohingya and 
other minority populations, created a massive displacement of 
populations internally and across the border, led to a humanitarian 
crisis in neighboring Bangladesh, and threatened to undermine Burma's 
substantial gains in recent years on its fragile transition from a half 
century of authoritarian military rule to elected government, including 
efforts to end multiple armed conflicts and achieve a long elusive 
national peace.
    We are grateful for the opportunity to update you on the current 
humanitarian situation facing those affected by the crisis, describe 
what the U.S. Government is doing through diplomatic engagement and the 
targeting of life-saving aid to address this situation, discuss the 
challenges the international community faces in delivering humanitarian 
assistance, and discuss next steps to achieve an end to the violence 
and restoration of security for affected populations.
Current State of Play
    We'd like to start by highlighting the latest developments since 
our testimonies to the House Foreign Affairs Committee on October 5. 
First, current estimates indicate some 589,000 people, mostly ethnic 
Rohingya, have fled to Bangladesh since the crisis began. These 
movements reflect a slowing rate of displacement, but nonetheless the 
continued flight of vulnerable populations. Refugees continue to cross 
into Bangladesh, and we continue to receive credible reports of 
sporadic violence in northern Rakhine State, including vigilante action 
such as arson and threats of physical harm to ethnic Rohingya. 
Reputable international NGOs have reported new satellite images that 
reveal nearly 300 villages were partially or completely destroyed by 
fire since August 25--more than half of the approximately 470 Muslim 
villages in northern Rakhine State. We have all seen the heart 
wrenching coverage of those refugees arriving in Bangladesh, having 
lost all their property and in some cases family members, and having 
suffered great insecurity, fear, indignity, and abuses as they fled for 
their lives.
    Although some population movements continue and security has not 
been fully re-established in northern Rakhine State, most reports 
indicate that our efforts, working with others in the international 
community, to communicate our concerns directly with Burmese civilian 
and military authorities and at the United Nations and other fora have 
helped to decrease the scope of violence in recent weeks. On October 
12, State Counsellor Aung San Suu Kyi gave a second public address on 
the crisis. She laid out three goals for Rakhine State: (1) 
repatriation of those who have crossed over to Bangladesh and providing 
humanitarian assistance effectively; (2) resettlement of displaced 
populations; and (3) economic development and durable peace. Burma has 
created a funding mechanism to pursue these goals with World Bank 
support. The Burmese Government also implemented a mechanism to 
coordinate its cooperation with the international community to address 
challenges in Rakhine State. Aung San Suu Kyi will chair this effort, 
but at the current time humanitarian and media access to affected areas 
of northern Rakhine State remains limited. At the same time, Bangladesh 
and Burma have entered into bilateral discussions on how to facilitate 
safe and voluntary return of refugees to Burma, a dialogue that we 
fully support.
    The sources of renewed crisis this year in Burma's Rakhine State 
include coordinated August 25 attacks on security forces and other 
violent acts carried out by the Arakan Rohingya Salvation Army, a group 
of Rohingya militants; a disproportionate Burmese military response to 
those attacks; violence perpetrated by local vigilantes, often acting 
in concert with security forces; and insecurity for local populations. 
These developments have taken place against a backdrop of broad 
discrimination, repression, and violence against ethnic minorities in 
Rakhine State over many decades. The current crisis, now underway for 
two non-stop months, has exacerbated longstanding challenges for these 
vulnerable minorities, including, most acutely, members of the Rohingya 
community who lack basic rights, including recognition as a nationality 
and, for many, even citizenship.
    The violence in Rakhine State has devastated vulnerable populations 
and caused families and unaccompanied minors to flee. This almost 
unprecedented population movement has worsened a desperate humanitarian 
situation in Bangladesh, which already provides safe haven for hundreds 
of thousands of Rohingya who fled previous crises in Rakhine State. 
Approximately 87,000 had fled there in 2016 following separate violence 
last year, joining an estimated 200,000-500,000 undocumented Rohingya 
and over 33,000 registered Rohingya already living in southeastern 
Bangladesh for over two decades. With this last round of displacement, 
the Rohingya population in southeastern Bangladesh is now estimated to 
be between 800,000 and one million persons. There is a similar 
population crisis inside Rakhine State, where the precise number of 
internally displaced persons (IDPs) remains unknown due to ongoing 
population movements, limited humanitarian access, and a lack of 
official estimates. In September, the Rakhine State Government 
estimated the current crisis had created approximately 200,000 new 
IDPs; however, many of those displaced persons have since crossed into 
Bangladesh. Prior to the August attacks, 120,000 IDPs from various 
ethnic populations, including Rohingya as well as ethnic Rakhine, had 
already been living in camps following intercommunal violence in 2012.
Diplomatic Engagement
    The suffering of so many calls all of us to action. Secretary of 
State Tillerson stated last week that ``the world can't stand idly by 
and be witness to the atrocities that are being reported.'' This 
administration is undertaking all efforts to end the violence and 
suffering immediately. Our most pressing objectives are achieving 
protection for all local populations and meaningful, durable solutions 
for those who have been displaced, including the chance to go home 
again voluntarily, in safety, and with dignity when conditions permit.
    We have made it clear to Burmese civilian and military officials at 
the highest levels, within the central government and in Rakhine State 
itself, that all stakeholders must end the violence, respect the rule 
of law, cease displacement, pave a path for Rohingya and others to 
return voluntarily to their homes, and hold accountable those 
responsible for violations and abuses. We have expressed alarm about 
continuing reports of violence perpetrated by security forces, as well 
as of civilian vigilantes operating outside the rule of law in 
committing arson attacks on Rohingya homes and blocking humanitarian 
assistance to many populations. Secretary Tillerson observed last week 
that ``someone will be held responsible'' for these acts.
    We have communicated to relevant authorities that those who have 
fled to Bangladesh or are otherwise internally displaced in Burma must 
be able to return home voluntarily--and we welcomed State Counsellor 
Aung San Suu Kyi's re-affirmed commitment in her October 12 speech that 
Burma would allow them to return. Much depends on how quickly it will 
be possible to establish conditions that make repatriation possible and 
safe and the precise way in which people are repatriated. We cannot 
ignore that vulnerable people fled to Bangladesh because they felt it 
was unsafe for them to stay in Burma. Unless Burmese security forces 
create a secure environment for all populations, it would be 
unreasonable and unwise to expect or facilitate their return. We are 
encouraging closer communication between Burma and Bangladesh. A senior 
Burmese delegation traveled to Dhaka on October 2 and the two sides 
agreed to form a joint working committee on repatriation.
    Principals in our government have been strongly engaged on this 
issue. President Trump has discussed the situation with multiple 
leaders from Southeast Asia. Secretary of State Tillerson called Aung 
San Suu Kyi to urgent action. Vice President Pence denounced the 
Burmese military's disproportionate response in his remarks at the 
United Nations. USUN Ambassador Haley spoke at an open Security Council 
meeting and called for an international role in ending the violence. 
National Security Advisor McMaster and other officials spoke with the 
Burmese National Security Advisor. Our Ambassador in Burma has actively 
engaged top Burmese Government and military leaders throughout this 
crisis. In September, Deputy Assistant Secretary of State Murphy 
visited Burma, including Rakhine State, and met with Aung San Suu Kyi 
as well with other national and state government and military figures. 
All U.S. officials have urged authorities and stakeholders in Burma to 
protect civilians, pursue accountability, and cooperate with the 
international community, and made clear that this crisis has 
implications far beyond Rakhine State. We are also engaging and 
consulting with ASEAN member states, the European Union, international 
organizations, and many others on the crisis.
Rakhine State Crisis Humanitarian Challenges
    The humanitarian challenges before us are many. Our focus is on: 
(1) gaining access for assistance in Rakhine State; (2) working with 
host governments in the region to ensure refugees are offered safe 
haven and treated with respect, and that host countries have what they 
need to help the refugees; (3) specific contributions made by the State 
Department in coordination with USAID; and (4) ensuring that U.N. and 
other humanitarian agencies have the support they need to respond.
Humanitarian Access
    The number one humanitarian priority is gaining access to those in 
need in Rakhine State. Relief agency access to many of the affected 
areas remains severely limited. As of October 10, the Government of 
Burma (GoB) had granted travel authorizations in northern Rakhine State 
only to Red Cross agencies. Although the GoB has granted some 
international NGOs travel authorizations to work in central Rakhine 
State, other government regulations and procedures are hindering INGOs 
from accessing all IDP camps and affected communities. In addition, 
safety concerns, a local climate of intimidation, and restrictions on 
movements prevent many local Burmese staff of these organizations from 
accessing those in need.
    We take every opportunity to emphasize to Burmese officials at all 
levels of government the need to allow humanitarian assistance to those 
in need. The White House, State Department, and the U.S. Mission to the 
United Nations have issued statements calling for immediate unhindered 
humanitarian access to all affected populations, including northern 
Rakhine State. The Government's commitment to do so is encouraging, but 
we seek further implementation on the ground.
    We are working with international partners and stakeholders inside 
Burma to overcome challenges that have precluded humanitarian agencies 
and NGOs from reaching affected areas of northern Rakhine State. We 
have succeeded in securing Burmese Government cooperation for the Red 
Cross Movement (RCM) to deliver assistance, but they alone cannot 
assess or meet all of the humanitarian needs in Rakhine State. 
Specifically, the International Committee of the Red Cross (ICRC) and 
the International Federation of Red Cross and Red Crescent Societies 
(IFRC) are working with the Myanmar Red Cross Society to implement a 
response plan as the situation continues to evolve. ICRC has stressed 
to the Burmese Government that the RCM will not be able to address all 
needs and the U.N. agencies and international non-governmental 
organizations will also need operational space. We are also pressing 
for unfettered access for the U.N. Fact Finding Mission and other U.N. 
officials, media, and human rights organizations to this isolated part 
of Burma.
Working with Host Governments
    We recognize the huge strain that the influx of refugees is 
currently placing on Bangladesh, as well as the concerns of other 
countries in the region such as India, Sri Lanka, and Thailand where 
displaced Rohingya and other Burmese minorities have fled in the past. 
It is essential that neighboring countries keep their borders open for 
those fleeing violence in Burma, and we will continue to emphasize this 
to those in the region, along with seeking ways to support governments 
hosting refugees.
    Bangladesh has kept its border open, though it is concerned about 
its capacity to absorb so many refugees, in addition to security 
concerns related to the influx of so many vulnerable people in such a 
short period of time. We appreciate the generosity of the Government of 
Bangladesh to those fleeing the violence, many of whom arrived after 
walking for days and are in need of food, water, and medical care. They 
found official and makeshift camps already overstretched by previous 
influxes of refugees. International aid agencies are working to scale 
up operations and provide basic life-saving assistance to the new 
arrivals. The majority of those in need have little access to food, 
water, health care, and proper shelter. The ongoing monsoon season has 
exacerbated the situation, as flooding and poor infrastructure make aid 
delivery even more challenging. The U.N. issued a revised appeal with 
an estimated $434 million required for emergency response in Bangladesh 
to meet needs through February 2018.
    The Government of Bangladesh is working with U.N. agencies and the 
international community to provide temporary shelter and protection. 
Bangladesh has now donated 3,000 acres of land and is working with U.N. 
agencies to establish needed infrastructure to support the refugee 
population. The Government has also initiated a registration process to 
document the Rohingya population in southeastern Bangladesh and provide 
individuals with identification documents that we hope will facilitate 
access to services and protection. Since September 11, the Ministry of 
Home Affairs has conducted biometric registration of over 100,000 
refugees with UNHCR's assistance. In every meeting with Bangladesh 
officials, we thank them for allowing refugees to cross and we discuss 
ways to support Bangladesh as the Government upholds humanitarian 
principles while balancing its own security concerns. We also urge 
Bangladesh to provide the necessary access to humanitarian 
organizations to that they can provide life-saving aid.
Humanitarian Assistance
    In addition to our diplomatic engagement, the United States is 
providing humanitarian assistance through our U.N. and international 
organization partners to help vulnerable populations affected by the 
Rakhine State violence. The United States continues to be the global 
leader in providing assistance to people in need in Burma and 
throughout the region. Thanks to support from Congress, in FY 2017, the 
United States contributed nearly $104 million in assistance to 
displaced populations in Burma and for refugees from Burma in the 
region. Of this funding, the State Department's contributions totaled 
nearly $76 million, including nearly $34 million in emergency 
assistance to respond to this latest crisis.
    This funding provides life-saving assistance to meet critical 
humanitarian needs, such as food, non-food items, shelter, water, 
sanitation, and health both inside Burma and in host countries through 
trusted humanitarian partners including the U.N. High Commissioner for 
Refugees (UNHCR), the International Organization for Migration (IOM), 
the U.N. Children's Fund (UNICEF), and international non-governmental 
organizations, among others. These agencies are a key part of the 
international humanitarian system that is governed by humanitarian 
principles and brings technical expertise and operational capacity to 
respond quickly and effectively to large-scale crises such as this.
Humanitarian Coordination
    In addition to funding levels, the region's capacity to handle the 
humanitarian crisis is dependent on the capacity of the U.N.-led 
humanitarian response, including deployment of emergency response 
experts and adequate staffing levels. In Bangladesh, we continue to 
advocate with U.N. coordinating agencies to increase expert technical 
staff on the ground and strengthen the coordination structure 
supporting implementation of the response plan. In a refugee crisis 
such as this, UNHCR holds the global protection mandate; however, in 
Cox's Bazar, UNHCR's role to date has been limited by the Government. 
The Government has recently increased cooperation with UNHCR and 
approved its role in leading protection services. This will help 
improve conditions in Cox's Bazar, including through increased 
information on the number and needs of refugees and coordination in 
responding to the most vulnerable individuals. Government constraints 
on funding to experienced international NGOs and delays in approving 
their permit applications have limited the INGOs' ability to access 
emergency funds and assist all those in need. In some displacement 
sites, strained water collection points, lack of adequate sanitation 
facilities, and high population density have raised concerns regarding 
the increased risks of disease outbreaks. Humanitarian partners are 
engaging in disease prevention activities and diligently treating 
cholera patients in coordination with government authorities. We will 
keep up pressure to ensure seamless coordination and strategic vision 
for the response in Bangladesh.
Long-Term Challenges
    In addition to pressing for immediate action to end violence and 
meet humanitarian needs, we are also supporting the Burmese elected 
government's efforts to address inherited challenges in Rakhine State. 
The Government established the Rakhine Advisory Commission, led by 
former U.N. Secretary General Kofi Annan, which in August produced a 
set of recommendations for addressing the complex issues in Rakhine 
State that have ignited many crises over past decades. Kofi Annan urged 
the U.N. Security Council on October 13 to push for the return to Burma 
of Rohingya refugees, reiterating that world powers must work with the 
country's military and civilian leaders to end the refugee crisis. The 
Commission's recommendations provide valuable ways forward in 
addressing underdevelopment, shortcomings in government services, 
access to justice, and ensuring a credible, transparent citizenship 
process for all people in Rakhine State. The Government of Burma has 
committed to implementing the recommendations, and established 
mechanisms to do so. We must support and encourage these efforts, and 
in particular press the Burmese armed forces to support its civilian 
elected governments in implementing all of the recommendations.
    The U.S. Government's overarching policy response also includes 
efforts to discourage the serious human rights abuses we have seen, 
identify potential means to hold accountable those responsible for such 
abuses, increase appreciation inside Burma for tolerance and human 
dignity, encourage the fragile democratization and processes in Burma, 
and further support economic development in Rakhine State and 
throughout the country. We will not do this alone. We are consulting 
with regional partners, members of the international community in 
international bodies like the United Nations, and courageous voices 
inside Burma who want human dignity for all who reside in that country 
and a peaceful and stable future.
Conclusion
    For decades, Congress and the U.S. Government have worked closely 
together on Burma as partners. In particular, we thank this Committee 
for its leadership and bipartisan collaboration. Together, we supported 
Burma's democracy movement through the dark days of repressive military 
rule, and together we supported a military reform government's 
transition toward democracy.
    It is in our interests, and those of the diverse populations of 
Burma, including Rohingya, to see the new, elected government succeed. 
The current crisis in Rakhine State has exposed the fragility of that 
democratic transition. Greater civilian control over, and 
professionalization of, the armed forces is needed, as are reforms that 
will bring an end to the military's heavy-handed tactics that have 
fueled violence across Burma since independence. The democratically-
elected government, security forces, local community leaders, and 
populations across the country all must calm tensions, end the 
violence, and secure the safe, voluntary, and dignified return of all 
those displaced. Only then will there be a chance for lasting peace and 
change in Rakhine State and across the country as a whole.
    In conclusion, Mr. Chairman and members of the committee, we are 
strongly engaged to bring an end to this major crisis and to find 
lasting solutions to the long-standing challenges in Burma's Rakhine 
State and beyond. U.S. Government humanitarian assistance provides an 
important lifeline until this possibility becomes reality. We are 
grateful for the generosity of Congress and the American people who 
make our assistance possible. We will look to Congress, as we always 
have, as an essential partner in these efforts.
    Thank you. We are ready to answer any questions you have.


    The Chairman. Thank you very much.
    Mr. Storella?

STATEMENT OF HON. MARK C. STORELLA, DEPUTY ASSISTANT SECRETARY, 
BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. DEPARTMENT 
                   OF STATE, WASHINGTON, D.C.

    Ambassador Storella. Chairman Corker, Ranking Member 
Cardin, distinguished members of the committee, thank you for 
inviting us to this important hearing. I am grateful for the 
opportunity to update you on how the U.S. Government is 
targeting lifesaving humanitarian assistance and on the 
challenges we face ahead.
    The violence in Rakhine State continues to devastate 
vulnerable populations within Burma and cause families, mostly 
women and children, to flee for their lives. The attacks on 
August 25th and the violent reaction that followed prompted 
more than 600,000 people to flee to Bangladesh, bringing the 
total number of Rohingya in Bangladesh to roughly 1 million 
people and forced further displacement inside Rakhine State 
itself. The magnitude and speed of this displacement make it 
one of the most dramatic humanitarian crises in decades.
    In Burma, our number one humanitarian priority is gaining 
access to those in need in Rakhine State. Burma's civilian 
government has committed publicly and privately to provide 
humanitarian assistance to all communities in affected areas 
through the Red Cross Movement. The movement has stressed to 
the Burmese Government that it will not be able to fully meet 
humanitarian needs, and the U.N. agencies and international 
organizations and nongovernmental organizations will also need 
operational space. We emphasize at all opportunities to Burmese 
officials at all levels of government the requirement to allow 
humanitarian assistance to reach those in need.
    We continue to press the government and the military, both 
publicly and privately, to end the violence, to protect the 
security of all communities, and to allow Rohingya refugees to 
voluntarily return to their homes after Burmese authorities 
ensure they can do so safely. The responsibility remains with 
Burma.
    We greatly appreciate the Government of Bangladesh for 
opening its doors to those fleeing the violence, many of whom 
arrived after walking for days in need of food, water, shelter, 
and medical care. The monsoon season has exacerbated the 
situation as flooding has made aid delivery even more 
challenging. In every meeting with Bangladesh officials, we 
thank them for allowing refugees to cross into Bangladesh, and 
we urge them to uphold humanitarian principles while balancing 
their own security concerns.
    In addition to our diplomatic engagement, the United States 
is providing humanitarian assistance through our U.N. and other 
humanitarian partners to help vulnerable populations affected 
by the Rakhine State of violence. The U.N. issued a revised 
appeal with an estimated $434 million required for emergency 
response in Bangladesh to meet needs only through the end of 
February 2018. Thanks to the support of this Congress, in 
fiscal year 2017 the United States contributed nearly $104 
million in assistance to displaced populations in Burma and for 
refugees from Burma throughout the region. Of this funding, the 
Department of State's contribution totaled nearly $76 million, 
three-quarters of the total U.S. humanitarian response, 
including nearly $34 million in emergency assistance to address 
this latest crisis. This allowed partners on the ground to 
respond immediately as thousands of refugees were arriving 
daily to the already established and newly established camps in 
Bangladesh. Our contributions provide lifesaving assistance, 
food, shelter, water, sanitation, health, and core relief items 
both inside Burma and in Bangladesh. We also target assistance 
for victims of gender-based violence and particularly for 
vulnerable children.
    Yesterday, in Geneva, 35 countries pledged $344 million to 
meet the ongoing need. The United States is not carrying this 
burden alone.
    In responding to this crisis, the State Department's 
primary concerns are protection and achieving meaningful, 
durable solutions for those who have been displaced, including 
the chance to go home again in safety and dignity when 
conditions permit. The U.S. Government humanitarian assistance 
provides an important lifeline until this possibility becomes a 
reality.
    Mr. Chairman, Ranking Member, we are grateful for the 
generosity of the Congress and the American people who make our 
assistance possible. We will make the best possible use of it.
    Thank you and I would be happy to answer your questions.
    The Chairman. Thank you, and thank you for your work.
    Ms. Somvongsiri?

   STATEMENT OF V. KATE SOMVONGSIRI, ACTING DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
    ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                        WASHINGTON, D.C.

    Ms. Somvongsiri. Chairman Corker, Ranking Member Cardin, 
members of the committee, thank you for inviting me to speak 
with you today.
    The violence in northern Rakhine State has resulted in 
massive displacement and humanitarian needs both in Burma and 
neighboring Bangladesh. This is a humanitarian crisis that not 
only imperils the lives of thousands but also marks a decision 
point for Burma's political and military leadership with the 
whole world watching.
    In response to the crisis, USAID is providing humanitarian 
assistance on both sides of the Burma-Bangladesh border. This 
humanitarian relief is in addition to our ongoing development 
assistance, which supports civil society, good governance, 
economic development, and the country's challenging peace 
process. Through these programs, we are working to address the 
underlying conditions and fragility that helped create the 
cycle of violence, including this most recent crisis.
    We are deeply concerned about the horrific human rights 
abuses. As we have discussed, more than 600,000 people have 
fled the recent violence and have sought refuge in Bangladesh. 
Given the enormity of this influx, stark challenges remain to 
adequately respond. The people fleeing over to Bangladesh, many 
women and children arrive, as you have heard, only with what 
they could carry. They require urgent lifesaving assistance, 
including safe drinking water, sanitation facilities, emergency 
food assistance, and shelter. Inside Rakhine State, there is 
also an unknown number of internally displaced persons in need 
of assistance.
    In fiscal year 2017, the United States provided nearly $104 
million in humanitarian assistance for the displaced in Burma 
and the region, including in Bangladesh. Through USAID's Office 
of Foreign Disaster Assistance and Food for Peace, the agency 
provided nearly $28 million of that assistance, and we expect 
to continue responding in fiscal year 2018.
    In Burma, our main challenge is not the lack of resources 
but a lack of access. Since the August 25th attacks, many of 
USAID's partners were forced to suspend their work due to the 
military security operations in Rakhine State. Insecurity and 
government restrictions have prevented humanitarians from 
reaching people in need. False and misleading rumors about the 
Rohingyas, spread sometimes by official government information, 
have contributed to that volatility. We continue to call upon 
all parties to allow unhindered humanitarian access and we urge 
the government to allow media and human rights monitors to 
access and assess the afflicted area.
    The United States has stood by vulnerable communities in 
Burma for decades. The country's recent emergence from decades 
of isolation and the establishment of a formal USAID mission in 
2012 has allowed us to expand our development programs to more 
effectively support those in Burma who seek greater freedom, 
prosperity, and dignity. Today, USAID works in Burma to 
strengthen democratic institutions, foster a national 
reconciliation and peace, improve the lives of people of Burma 
by increasing the access to better health services and economic 
opportunities. And USAID continues to support an inclusive 
peace process and support civil society.
    Let me be frank. The path we face ahead is by no means an 
easy one, and the development challenges in Burma are complex 
and deep-rooted. During this period of crisis, it remains in 
the U.S. Government's interest to continue our support for 
Burma's democratic transition while addressing the root causes 
of conflict in Rakhine and other parts of Burma. This support 
is critical to helping the civilian government of Burma to 
sustain the transition and deliver on the dividends of 
democracy that the people of Burma expect.
    The latest violence has exacerbated the existing human 
rights and humanitarian crisis impacting the lives of 
thousands. We must be honest and forthright in the assessment 
of the situation and clear on what we expect as humanitarians 
and as Americans.
    In the long term, our development efforts must continue to 
address the underlying drivers of the violence. But in the 
immediate term, until the conflict is resolved, we shall remain 
resolute in our efforts to alleviate the immeasurable suffering 
of the Rohingya and all affected communities. We call on all 
stakeholders to end the violence and seek a lasting resolution 
to this conflict.
    Thank you for the opportunity to testify before you today, 
and I look forward to your questions.
    [Ms. Somvongsiri's prepared statement follows:]


               Prepared Statement of V. Kate Somvongsiri

    Chairman Corker, Ranking Member Cardin, members of the committee, 
thank you for inviting me to speak to you today. Burma has come a long 
way in its transition to a free and democratic society, seeking to take 
its place in the global community. Initial steps to embrace reform are 
welcome, and we are committed to working with the people of Burma to 
create lasting economic, social, and democratic gains that benefit all. 
However, the ongoing humanitarian plight of the Rohingya casts a cloud 
over Burma's recent gains, and threatens to undermine the successes it 
has demonstrated.
    As you have seen, the recent escalation in violence in northern 
Rakhine State has resulted in massive displacement and humanitarian 
needs both in Burma and across the border in neighboring Bangladesh. 
This is a rapidly growing humanitarian crisis, and the United States is 
responding to save lives. Recent events not only imperil the lives of 
thousands, but also mark a decision point for Burma's political and 
military leadership, with the world watching.
    In response to the latest violence, USAID is responding on both 
sides of the Burma/Bangladesh border, providing humanitarian assistance 
where possible, helping host communities in Bangladesh cope with the 
influx of refugees and addressing intercommunal tensions in ethnically 
mixed areas of Rakhine in Burma, including areas not directly affected 
by recent violence. This humanitarian relief is in addition to our 
ongoing development assistance to the people of Burma, which includes 
support for civil society, good governance, economic development, and 
support for the country's challenging peace process. Through this work, 
we seek to address the underlying conditions and fragility that helped 
create this cycle of violence and the most recent crisis.
    As a foreign service officer who lived on the Thailand-Burma border 
sixteen years ago working with migrants and refugees, Burma is for me, 
as I know many others, a special place that has influenced my path in 
international human rights and development. In my testimony, I will 
touch on how USAID is responding to in the current crisis, highlight 
some of the challenges we face in providing humanitarian assistance, 
and touch on the role of USAID's broader assistance to Burma.
Recent Developments
    We are deeply concerned about the reports of horrific human rights 
abuses in northern Rakhine State and the resulting crisis developing 
across the border in Bangladesh. More than 600,000 people fleeing the 
recent violence in Rakhine, most from the Rohingya community, have 
sought refuge in Bangladesh. The pace of displacement is even faster 
than those fleeing Mosul, Iraq, or South Sudan over the past year. This 
population--many of them women and children, who came with little to no 
possessions and traveled for days to reach Bangladesh--are extremely 
vulnerable and require urgent, lifesaving assistance. There are also an 
unknown number of people from many communities who have been internally 
displaced--and are in need of assistance--inside Rakhine State, 
including 120,000 people who have been displaced since 2012. I don't 
use the term `unprecedented' lightly, but it is fitting in this case.
    While the immediate crisis has been triggered by a coordinated 
attack from the Arakan Rohingya Salvation Army (ARSA) on Burmese 
security outposts and disproportionate response by Burmese security 
forces and militias, the conditions for a large-scale crackdown on 
Rohingya have been developing for several years.
    Our main challenge in responding to the humanitarian crisis in 
northern Rakhine State is not due to a lack of resources, but a lack of 
access. This is due to restrictions imposed by Burmese authorities, 
which prevent U.N. and international non-governmental organizations 
(INGOs) from providing much-needed humanitarian assistance. U.N. 
partners and international NGOs have not been allowed to provide 
assistance in the north, where abuses are occurring. Burmese officials 
have instructed local civil society groups that they are not permitted 
to provide assistance directly to Rohingya communities, and that all 
assistance to Rohingya will be managed by the government and Red Cross 
Movement organizations.
    Assistance delivered directly by international groups, including 
the U.N. and INGOs, is not currently an option in Northern Rakhine 
State. We continue to call upon the Burmese Government and military to 
allow unhindered access for humanitarian access to resume across 
Rakhine State.
Burma
    In Rakhine State, many of USAID's partners were forced to suspend 
their work due to the military's security operations since the August 
25 attacks and they remain unable to gain access to northern Rakhine 
State. It's important to note, though, that humanitarian access 
throughout Rakhine State had become increasingly restricted even before 
the August 25 attack. Nevertheless, our partners have maintained a 
presence in Rakhine and many of our conflict mitigation and 
intercommunal conflict mitigation programs continue in areas outside of 
Northern Rakhine. Our humanitarian programs are ready to scale up 
activities when Burmese authorities permit access.
    USAID partners have been able to resume limited life-saving 
assistance to people in central Rakhine State located in camps for 
internally displaced persons in Sittwe and Pauktaw. This includes 
nutrition, food, protection support for people vulnerable to 
trafficking and other human rights abuses, and water, sanitation, and 
hygiene services, which are largely managed by local staff. However, 
the security forces continue to prevent full humanitarian access to 
northern Rakhine state and full resumption of activities in other parts 
of the state. Some communities--such as internally displaced people 
(IDPs) dependent on humanitarian assistance--have missed more than two 
months of food distributions. The U.N. World Food Programme (WFP) is 
only now able to resume distributions, at a smaller scale and under 
heightened tensions. Additionally, insecurity, government restrictions, 
and local communities' enmity towards U.N. and NGO staff, including 
local staff, further inhibit access. False and misleading rumors about 
Rohingya, the level of threat presented by ARSA, and the role of the 
international community spread amongst local communities and fanned by 
official government and military information channels have contributed 
to the volatility of the present environment.
    Rohingya in northern Rakhine State have long faced a history of 
violence, abuse and exploitation, and the humanitarian situation in 
Rakhine is routinely referred to as a protection crisis. Reports of 
atrocities are extremely troubling, and further demonstrate that 
humanitarian assistance and protection from further violence is 
urgently needed. We continue to call upon all parties to allow 
unhindered humanitarian access to people in need and we urge the 
authorities to allow media and human rights monitors access to the 
afflicted areas.
    We also urge Burmese security forces to follow the lead of the 
elected government in committing to implement the Advisory Commission 
on Rakhine State's recommendations.
Humanitarian Response
    Given the enormity of this influx, stark challenges remain to 
adequately respond. The people fleeing to Bangladesh arrive with what 
they could carry. They are in immediate need of safe drinking water, 
sanitation facilities, emergency food assistance, shelter, healthcare, 
and nutrition services. Poor conditions in displacement sites increase 
the risk of disease outbreaks.
    In FY 2017, the United States provided nearly $104 million in 
humanitarian assistance for vulnerable communities displaced in Burma 
and the region, including Bangladesh. Through USAID's Offices of U.S. 
Foreign Disaster Assistance (OFDA) and Food for Peace (FFP), the Agency 
provided nearly $28 million, and we expect to continue responding to 
this crisis in FY 2018.
    In Bangladesh, FFP provided $7 million to WFP to provide life-
saving food assistance to the refugees in Bangladesh. These resources 
also support the essential coordination and logistics efforts needed to 
manage the massive influx of people and scale up assistance, in concert 
with our State partners.
    We are also working with our international partners to step up the 
humanitarian response where possible. We applaud the Government of 
Bangladesh's generosity in responding to this severe humanitarian 
crisis. USAID recognizes that host communities are stretching their own 
scarce resources to take in their neighbors, and we are committed to 
supporting them as well. USG funding in Bangladesh includes assistance 
for host communities who are bearing a large burden themselves to 
shelter and support the massive influx of people.
    USAID's Mission in Burma is closely coordinating with other 
agencies in Burma and the regional international organizations, and 
other donors, to address the situation in Rakhine State. Together with 
our colleagues at the State Department, and along with the 
international community, we have reiterated our strong concerns to the 
Burmese Government, and have called on them to end violence, provide 
immediate, unhindered humanitarian access, and ensure the dignified, 
safe, and voluntary return of all those displaced from their homes.
Broader Burma
    Decades of military rule and control of large portions of the 
economy, rampant corruption, and internal conflict have prevented the 
development of well-functioning democratic governance systems. As we 
see playing out in the current crisis, this has further entrenched 
historic ethnic divides, hurt Burma's economy, and severed social 
services.
    USAID continues to support civil society in Rakhine State and 
across Burma to prevent further escalation of violence and counter hate 
speech and rumors. Peace networks, made up of diverse civil society 
organizations throughout Burma, have actively combated misinformation 
on the [violence in Rakhine State][situation in Rakhine State], as well 
as worked to prevent the narrative from spreading into a larger crisis 
targeting all Muslims, like was seen in 2012 and 2013. These efforts, 
along with our work with local government officials on conflict 
mitigation trainings, have been complemented by our partners working to 
develop online platforms that fact-check local reporting and online 
rumors.
    In addition, ongoing inter-communal tension and violence outside of 
Rakhine State remain a serious threat to the political transition 
process in Burma. USAID assistance continues to support an inclusive 
peace process, including the implementation of the nation-wide and 
bilateral ceasefire agreements and enabling participation in formal and 
informal political dialogues from all stakeholders, particularly those 
from underrepresented groups such as women.
    USAID also strengthens resilience among vulnerable communities in 
conflict-prone areas, including but not limited to Kachin and Shan 
States in the northeast and areas of central Burma, to address the 
drivers of communal level violence. Programs support local decision- 
making models centered on diverse community participation to ensure 
historically- marginalized and vulnerable populations have a voice in 
shaping their future and to mitigate the risk of marginalized groups 
resorting to violence and extremist ideologies. As we have seen with 
the most recent attacks on Rohingya, the hate speech towards and 
demonization of minority ethnic groups have been key drivers of the 
spread of violence in Rakhine, and targeting those factors can help 
stave off future violence.
    The United States has stood by vulnerable communities in Burma for 
decades. This includes the provision of humanitarian assistance along 
the Thailand-Burma border, in the delta region of southern Burma and in 
central Burma. In the east along the Thailand-Burma border, USAID 
supports cross-border consortiums and local partners to respond to the 
humanitarian needs of nearly 400,000 Karen and Karenni IDPs and 
refugees. In Kachin and northern Shan States, where recent violence has 
led to further displacement, USAID is supporting nearly 100,000 IDPs in 
areas with limited humanitarian access, though the military continues 
to prevent humanitarian assistance from reaching areas that are 
administered by ethnic armed groups.
    This recent human rights and humanitarian crisis, in many ways, 
highlights the ongoing and underlying challenges facing Burma. 
Addressing the root causes of violence is more important than ever. To 
that end, USAID works to strengthen democratic institutions, including 
the parliament, the judiciary and civil society; foster national 
reconciliation and peace; and improve the lives of the people of Burma 
by increasing access to better health services and creating economic 
opportunities. This support is critical to helping the civilian 
government of Burma sustain this transition, address the underlying 
causes of violence, and deliver on the dividends of democracy that the 
people of Burma expect.
    Burma emerged from decades of isolation over the past ten years. 
The establishment of a formal USAID Burma Mission in 2012 allowed us to 
expand our development program to more effectively support those in 
Burma who seek greater freedom, prosperity and dignity. During this 
period of crisis, it remains in the U.S. Government's interest to 
support Burma's democratic transition. It represents the most 
significant opportunity in decades to engage with the people of Burma 
in pursuit of democracy, human rights, peace and prosperity, and ending 
the cycle of violence.
Conclusion
    USAID will continue efforts to foster national peace and 
reconciliation, maintain momentum for democratic and economic reforms, 
and improve the lives of the people of Burma.
    However, we must be honest and forthright in our assessment of the 
situation, and clear on what we expect as humanitarians, and as 
Americans. We know it's a tough road ahead. The military controls the 
power ministries, as well as sectors of the economy. Indeed, the latest 
violence in Rakhine reflects the power of the security forces and has 
exacerbated the existing human rights situation and humanitarian 
crisis, imperiling the lives of hundreds of thousands. In the long-
term, our development efforts must continue to address the underlying 
drivers of the violence, some deeply rooted in history, and others an 
obvious outgrowth of decades of military rule. But in the immediate-
term, until the violence and abuses abate, we shall remain resolute in 
our efforts to alleviate the immeasurable suffering of Rohingya and all 
affected communities within Burma and Bangladesh.
    Thank you for the opportunity to testify before you today. I look 
forward to your questions.


    The Chairman. Thank you all for your testimony.
    And I will turn to Senator Cardin.
    Senator Cardin. I also thank you for your testimony.
    If I could just get a yes or no answer on your personal 
views whether what is happening there is ethnic cleansing. I 
understand the administration is going through a process, but I 
would like to get your view whether you believe this is ethnic 
cleansing or not. Just yes or no would be helpful.
    Mr. Murphy. Thank you, Senator. If you will permit me just 
a slightly more elaborate answer.
    Senator Cardin. No.
    Mr. Murphy. My bosses have said it appears to be ethnic 
cleansing. I am of that view as well.
    Senator Cardin. I think clarity is important here. I am 
asking your view.
    Mr. Murphy. Unfortunately, I am not in a position to make 
the determination. You are correct that we are referring to a 
process to lead to that determination. In the meantime, we 
conclude that there have been atrocities, massive displacement, 
depopulation of villages that causes great concern. Therefore, 
we are pursuing all avenues for accountability. Hypothetically, 
a determination of ethnic cleansing will not change our pursuit 
of full accountability, sir.
    Senator Cardin. Could you answer yes or no, whether you 
believe it is ethnic cleansing?
    Ambassador Storella. Senator, I have worked in humanitarian 
affairs off and on for 30 years, and I have witnessed over that 
time terrible things that have happened. In this case, we have 
seen so-called clearing operations that have resulted in the 
clearing of 603,000 people from their homes to a foreign 
country and probably 100,000 people from inside Burma to other 
displacement.
    I am not in a position, like my colleague, to characterize 
it today. But I do want to say that to me this very closely 
resembles some of the worst kinds of atrocities that I have 
seen over the course of a long career.
    Senator Cardin. Would you try a yes or no? Maybe I can get 
one out of three.
    Ms. Somvongsiri. Unfortunately, the role of our 
organization is not to define legally what is happening.
    Senator Cardin. I asked your personal opinion.
    Ms. Somvongsiri. I am not in a position to offer my 
personal opinion.
    Senator Cardin. Look, I think this is one of the problems 
we have. Clarity is important. This is ethnic cleansing. It is 
pretty clear. And if we do not say it, it will happen again and 
again and again.
    Now, I am for the efforts for stopping the violence, and I 
support all the international efforts for humanitarian 
assistance for those that are in Bangladesh and those who are 
displaced in Burma. I am for pursuing the peace process so 
people are not going to be further killed. Absolutely. It has 
got to be our top priority. But if we do not do something to 
end this cycle of violence with impunity, it is going to happen 
again. The next country will do it.
    And, Mr. Murphy, I appreciate your view that you want to 
impose sanctions against the military or use Magnitsky, which 
is a bill that I am very proud about. But where are the 
generals being held accountable criminally for what they have 
done in murdering people, raping people, burning villages? 
Where is the accountability for those who are responsible for 
directing this?
    Mr. Murphy. Senator, I agree with you. Accountability is 
vitally important----
    Senator Cardin. What is the United States doing?
    Mr. Murphy. As I said in my statement, Senator, we have 
announced measures to pursue accountability, including the 
consultation with the very organizations that have those tools 
available to them, the United Nations, the U.N. Human Rights 
Council, among others.
    We are taking measures ourselves, but we have to admit we 
have very limited influence and leverage. We do not have a 
normal relationship with its military. We have not for decades. 
In the process of lifting sanctions, we have isolated 
restrictions on the military that remain in place. We will take 
additional measures, as I have said, to restrict travel here, 
to explore measures how we can sanction individuals found to be 
accountable. And that is an important, I think, path forward 
for us to take.
    Senator Cardin. Who is in charge in Burma? Is it the 
civilian or military?
    Mr. Murphy. It is an excellent question, and the answer, of 
course, like Burma itself, is very complicated. This is a power 
sharing arrangement. The civilian elected government for the 
first time----
    Senator Cardin. Who is responsible for the atrocities that 
are taking place now? Is it the civilian fault or the military? 
Who is primarily responsible?
    Mr. Murphy. There are many contributors to violence and 
human rights abuses. The security forces hold the greatest 
responsibility for protecting civilians, and they have failed. 
However, we must point out there is vigilante action, civilians 
conducting violence against other civilians. The Rohingya 
militants that----
    Senator Cardin. Encouraged by the military?
    Mr. Murphy. In some cases, they are acting in concert with 
security forces, yes; in other cases, independently.
    Senator Cardin. So did we make a mistake in relaxing the 
sanctions because Burma was moving away from a military 
government?
    Mr. Murphy. Senator, I think the decision to lift the 
national emergency was a reflection that sanctions had run 
their course in attempting to achieve a transition----
    Senator Cardin. But you are talking about imposing new 
sanctions.
    Mr. Murphy. We are talking about targeted--targeted--
measures to hold individuals----
    Senator Cardin. Is the military--you consider that 
targeted. That is an institution of its government. I would 
agree with you if you are talking about holding people 
criminally responsible for their criminal activities. I do not 
see that coming.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Young?
    Senator Young. Well, thank you, Mr. Chairman.
    And thank you to our panelists for your attendance here 
today.
    I agree with the ranking member. We need to speak with 
moral clarity on this matter. The United States clearly needs 
to lead. Ambassador Haley--I was really proud of her. She 
assessed that the Burmese Government is conducting a, ``brutal, 
sustained campaign to cleanse the country--cleanse the country 
of an ethnic minority.''
    The U.N. High Commissioner for Human Rights has referred to 
the situation in Burma as a textbook example of ethnic 
cleansing.
    I understand your positions and we are in the course of an 
assessment internally, but I hope our government speaks with 
moral clarity on this matter.
    We often refer to the international community, and the 
international community--some have characterized this as kind 
of an oxymoron phrase. And right now, if the U.S. does not 
lead, I do not think the international community is going to 
end up in a position where they are not only condemning this 
sort of behavior but acting boldly to address the needs of the 
affected populations. There are nihilistic nations out there. 
There are relativistic nations. There are those who will 
passively stand by and watch these sorts of actions continue 
unless the United States leads on these and other matters.
    So thank you to my colleague, Senator Merkley. He worked 
with me on a letter that we sent off to Ambassador Haley 
regarding this very issue of ethnic cleansing in Rohingya some 
days ago. 21 of my colleagues signed on to it, including the 
ranking member. Have each of you reviewed that letter? Okay, 
thank you. I saw an affirmative nod there from each.
    We called on the Burmese Government to permit the safe 
access to journalists, to U.N. fact-finders, and to 
humanitarians. And Secretaries Murphy and Storella, I noted 
that in your testimony, you indicated the number one 
humanitarian priority is to gain access by the humanitarians to 
those in need in the Rakhine State.
    Ms. Somvongsiri, you called the lack of access the main 
challenge, and you say that due to restrictions imposed by the 
Burmese authorities, that access is not happening. Why is the 
lack of access to affected populations the main challenge? And 
what is the precise role of the Burmese in hindering that 
access?
    Ms. Somvongsiri. Senator, thank you for your question and 
for the letter from you and so many of the other members 
highlighting that issue of access for journalists and 
humanitarians. It is absolutely essential and thank you for 
including that in your letter, which was very constructive 
overall.
    The reason it is the main challenge is because right now--
let me divide it up. There is northern Rakhine State and 
central Rakhine State.
    Right now in northern Rakhine State, which is the area that 
is most deeply affected, the only international NGO that has 
access is the Red Cross Movement, and they have very limited 
abilities. They have said so themselves, that they cannot 
provide fully the range of support that is needed. Our 
partners, the U.N. agencies, stand by and are ready to provide 
that support to the affected populations but cannot do so.
    In central Rakhine State, there is more ability to provide 
access and help, but it is also severely limited. We recently 
have been able to restore some of that humanitarian service, 
but it is still operating at only about 50 percent.
    Your question about the role of the Burmese Government in 
it specifically, it is that the Burmese Government authorities 
are the ones who provide the permits that are necessary to 
access these areas, and they have not given them.
    Another complicating factor is even when there are travel 
permits, there are excessive layers of bureaucratization, 
planning, work plans, and high levels of ethnic tension in 
those areas that make it very difficult to deliver the aid.
    And if I could just add one more thing on the importance of 
access not just from the humanitarian side, but from 
journalists and media. This gets exactly to Senator Cardin's 
point on accountability. Unless we are able to access these 
areas and actually see and document what is happening, that 
makes accountability in the future very difficult. So that is 
why we as a humanitarian organization continue to call for and 
appreciate your support.
    Senator Young. I have got 30 seconds left. I do want to 
commend the administration. I mean, the administration has 
generally spoken forcefully about the need for humanitarians to 
gain access, and on the diplomatic front, I feel like thus far 
they have been pretty strong. Secretaries Murphy and Storella, 
you did indicate in your prepared statement that the Burmese 
Government's commitment to provide humanitarian access was 
encouraging. To me, I am not particularly encouraged. Neither 
gestures nor statements nor some futile actions at this point 
are enough. We need bold action. I hope each of you will 
communicate that to your Burmese counterparts every time you 
are interacting with them. I will be visiting with a 
representative from the Burmese Government tomorrow. I will 
certainly be delivering that strong message. And thanks again 
for your service.
    The Chairman. Thank you.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman, and thank you for 
holding this hearing because I think it is so important that we 
put a very bright spotlight on this horrendous situation. And I 
will be happy to use the term that our representatives from the 
executive branch are not willing to use. This is ethnic 
cleansing. 288 Rohingya villages destroyed and not one word 
from our President. Thousands of children slaughtered. Not one 
word from President Trump. Thousands of women raped. Thousands 
of men and women shot as they fled villages. Villages 
surrounded and starved, 600,000 refugees, and not one word from 
our President during this horrific situation.
    Are you recommending to the President he speak loudly and 
forcefully on this issue? If each of you could tell me yes or 
no.
    Mr. Murphy. Senator, as I noted, the President has spoken 
with a number of leaders about the situation----
    Senator Merkley. Excuse me. The President has not made a 
public statement. Are you recommending that he take a forceful 
public statement to shine the international spotlight on this 
issue?
    Mr. Murphy. I believe the administration has spoken with 
clarity and moral clarity.
    Senator Merkley. Thank you. You are not saying yes or no. 
So I assume the answer is no.
    Are you, sir, recommending to the President that he speak 
and take a public position on this?
    Ambassador Storella. Senator Merkley, thank you very much 
for the question.
    We are recommending that we speak forcefully and directly 
about the kinds of atrocities----
    Senator Merkley. Thank you. Can we expect such a statement 
from the President in the next week?
    Ambassador Storella. I am not in a position myself----
    Senator Merkley. I appreciate you pressing for that.
    Ms. Somvongsiri. Yes, likewise. Obviously, as an agency, we 
defer to our State Department colleagues' lead on this. But, 
yes, as an agency we do continue to call on all parties to 
speak forcefully to do what we can to end the violence, gain 
humanitarian access, and to hold people accountable.
    Senator Merkley. You cannot really call on all parties to 
speak forcefully if our own President is not speaking 
forcefully.
    I have here a mission report of the United Nations Human 
Rights Office of High Commissioner, September 13th through 
24th. If I can enter that into the record.
    The Chairman. Without objection.


    [The information referred to is located at the end of the 
hearing transcript.]


    Senator Merkley. I would like to quote a piece of this, and 
they use the term ``Myanmar,'' so Myanmar or Burma. ``Myanmar 
security forces purposely destroyed the property of Rohingyas, 
scorched their dwellings and entire villages not only to drive 
the population out in droves but also to prevent the fleeing 
Rohingya victims from returning to their homes. The destruction 
by the Tatmadaw''--that is the Burma military--``of houses, 
fields, foodstocks, crops, livestock, and even trees render the 
possibility of Rohingya to returning to normal lives in the 
future almost impossible. It also indicates an effort to 
effectively erase all signs of memorable landmarks and 
geography of the villages and memory in such a way that return 
to their lands would yield nothing but desolate and 
unrecognizable terrain. Information received indicates that the 
Myanmar security forces targeted teachers and cultural and 
religious leadership and other people of influence in an effort 
to diminish Rohingya history, culture, and knowledge.''
    Does that sound like ethnic cleansing to you? Don't 
everyone rush to answer.
    Ambassador Storella. Senator, first, let me say that 
through the support of the United States Congress, the United 
States Government is the strongest supporter of the UNHCR not 
only financially but also through our diplomatic engagement 
around the world. We support what the High Commissioner is 
doing very strongly. We believe that what he has described are 
in fact an accurate description of the atrocities that have 
taken place.
    Senator Merkley. Thank you. I appreciate that. And I am 
very glad to hear that because I believe that if you carry that 
message to the highest levels of the Department that you 
believe that this is an accurate description, that we will see 
forceful representation of America responding to this.
    I recall our Secretary of State talking to me when he was 
being considered for nomination, and he said he was going to 
provide moral leadership guidance. And yet here we have this 
horrific instance and we have virtually no voice, no pressure, 
very polite words about supporting the evolving democracy in 
Burma, almost things that sound like, well, we think they are 
doing a good job trying to address this. They are not doing a 
good job. The military--and none of you testified that the 
military is behind this. This is an act not by random forces. 
This is an act by the Government of Burma, and we need to 
respond with enormous moral clarity and force on this issue. 
And I hope you will make that happen.
    The Chairman. Thank you very much.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here today at this 
very important hearing. I think all of us recognize the crisis 
in Rakhine State as nothing short of a humanitarian 
catastrophe, and the United States must be resolute in stopping 
this violence, condemning this violence, assisting the 
refugees, and seeking accountability for the many crimes that 
are being committed.
    I reiterated that very message personally yesterday in my 
meeting with Burma's Ambassador to the United States and will 
continue to do so.
    I am deeply saddened and outraged at the events of the last 
several months. We all are and we all have to be. I visited 
Burma in May of 2016, had a long, productive conversation then 
with Aung San Suu Kyi, here in the United States as well. 
Military leaders I met with, including the commander in chief, 
expressed our condemnation in the strongest terms possible 
which has unfolded there for decades. The recent tragic events 
threaten to upend the hopeful trajectory of democratization 
that we have talked about here today and reform in Burma that I 
witnessed firsthand during that visit. And while we must 
address the crisis in Rakhine State, we must also look to the 
broader questions of whether U.S. policy toward Burma has 
succeeded to date in paving the path to peace, stability, and 
democracy in that country. And I know that is what this 
committee hearing is about today, and I thank the witnesses for 
participating in it.
    But I am struck by several of the answers that we have 
received to some of the questions that have been asked.
    I guess I want to start following up on something that 
Senator Cardin said, Secretary Murphy. Last year, last 
Congress, the decision was made to lift the sanctions against 
Burma. Will that be reversed? Was it a mistake?
    Mr. Murphy. Senator, I appreciate your longstanding 
interest in Burma, and I think that your visit there does equip 
you to understand many of the challenges this country faces.
    I want to take the opportunity to speak with moral clarity. 
There have been some questions about where the administration 
is. We have stated in our testimony today we have witnessed 
terrible crimes. There is increasing evidence that security 
forces are associated with vigilante action. These individuals 
will be held accountable. We will pursue accountability with 
all of the tools available to us.
    I have also stated that the military security forces have 
reacted in a disproportionate manner and bear the greatest 
responsibility for protecting local populations and have failed 
to do so.
    Our sanctions program was designed to see the expression of 
the will of the Burmese people. We saw a successful election. 
An elected government, just 16 months ago, began very 
significant efforts to address elusive national peace, end 
conflicts around the country, and indeed, try and address the 
plight of the Rohingya people. That does not absolve this 
government of criticism for its shortcomings. We are looking 
for all stakeholders to take actions.
    We also have to realize what this government is up against. 
I do not take their position. I do not defend their position, 
but the elected government does not have full authority over 
the military. In Rakhine State, ethnic Rakhine leaders are 
opposed to humanitarian assistance. They are opposed to 
citizenship for the Rohingya. They hold incredible sway over 
the political space there. The entire country has prejudice and 
racism directed at the Rohingya. Any government is going to 
have difficulties in overcoming those obstacles.
    So we have to support those in government who see a better 
path forward. And indeed, the Rakhine Advisory Commission is a 
perfect example. This government invited the formation of the 
commission, and it has adopted and accepted the 
recommendations. We want to support those because they provide 
the best path forward for the Rohingya people.
    Broad sanctions. Those are under discussion, but I have to 
allow broad sanctions could very well make those vulnerable 
populations that still remain more vulnerable, susceptible to 
the same violence and criminal activity that is taking place 
thus far. We have to be very careful with our approach so that 
we can achieve the objectives that we are talking about today: 
better protection for these populations, safe return, 
accountability for those who have committed atrocities.
    Senator Gardner. I expressed my concern to this committee 
over and over last Congress. I even put a hold on Ambassador 
Marciel over my objection that we lifted the national emergency 
order provisions at the State Department that were put in 
place. And I just do not understand. I still do not understand 
to this day how we think somehow we are better off having done 
that and the actions that we have seen in Burma--how the 
Rohingya are better off as a result of that. It seems like we 
gave a carrot without any return to behavior that would improve 
the plight of the human catastrophe that is unfolding there.
    China, obviously a border state, very important 
economically. What is China's role? What have they done as we 
have seen this unfold?
    Mr. Murphy. Senator, I think first on sanctions, we are 
talking about targeted measures to try and achieve behavior 
change and protect civilians. We have to recognize, in terms of 
broad sanctions, the United States was the last country 
standing with significant restrictions. It was hurting our 
interests. It was hurting the ability of this elected 
government to have a good start in addressing the problems that 
had been ignored by 50 years of military, authoritarian, 
repressive rule. It does not mean Burma had reached perfection. 
We knew this would be bumpy. We knew there would be many 
challenges. We have to look at the tools available to us to 
encourage behavior change and proper actions.
    Proper actions are required by all in the international 
community, including China. We would hope as a member of the 
Security Council, China could join us in recognizing the 
military's disproportionate response has exacerbated these 
problems. And China needs to work with others on the Security 
Council to understand that the instability that is being 
created could affect the neighborhood, including China's own 
interests.
    Senator Gardner. Has China publicly condemned the actions 
of the military in Burma?
    Mr. Murphy. I do not think we have seen very encouraging 
signs from China with regard to the Burmese military. We are 
looking for a better posture on their part.
    The Chairman. Thank you. Thank you very much.
    Senator Shaheen?
    Senator Shaheen. Well, thank you all very much for being 
here and for your ongoing work.
    I share the frustration that you are hearing among my 
colleagues on this committee about our inability to better 
affect the outcome of what is happening in Burma.
    I understand that there have been allegations of sexual 
violence, of rape, of other actions specifically targeting 
Rohingya women by members of the Burmese security forces. Can 
you tell me, any one of you, if we have raised those specific 
concerns of gender-based violence with the Burmese military and 
the government?
    Mr. Murphy. Yes, Senator. We share your concerns. The 
reports primarily coming from refugees, very credible NGOs 
would suggest a wide range of abuses and atrocities, including 
sexual violence, violence against women and children. These are 
particularly vulnerable populations within a larger vulnerable 
population of the Rohingya.
    We have expressed this concern with all the leaders and 
stakeholders. And I want to emphasize, Senator, this is not a 
monolithic government that has full authority.
    Senator Shaheen. No. I understand that.
    Mr. Murphy. So yes, directly with Aung San Suu Kyi. We have 
had conversations through our Ambassador to Burma, Scot 
Marciel, with the Commander-in-Chief of the armed forces, Min 
Aung Hlaing. We have expressed our concerns with other 
stakeholders, including local populations, local leaders in 
Rakhine State. And we have pointed out that these kind of 
abuses, this kind of displacement threatens the transition to 
democracy, creates a much bigger risk for the attraction of 
international terrorism, and could set Burma back. So it is in 
the country's interest not only to protect local populations 
but to pave a path forward that is in the betterment of all 55 
million people.
    Senator Shaheen. Well, I appreciate that. Unless you have a 
different response, Ambassador Storella, I am going to move on.
    Ambassador Storella. Senator Shaheen, I would just like to 
say that our Ambassador, Marcia Bernicat, in Bangladesh herself 
went and visited with victims of gender-based violence so that 
she herself could hear their testimony. Through the support of 
this Congress, we are providing assistance to thousands of 
people who have been victims of that violence. Thank you.
    Senator Shaheen. Well, thank you. I do appreciate that. And 
this week, Senator Isakson and I are going to reintroduce the 
International Violence Against Women Act, and I think it speaks 
to the importance of that legislation as we look at how to 
address these crimes that are happening not just--unfortunately 
are happening not just here with the Rohingya but in other 
places around the world.
    I understand that there are an estimated 69,000 pregnant 
Rohingya refugee women in Bangladesh. I am not sure if that 
number is correct, but that the main assistance that they are 
getting is from the UNFPA. And I certainly support that. I 
support the efforts that UNFPA makes around the world to help 
pregnant women and vulnerable women who are in need of pre- and 
postnatal care.
    I guess, Ambassador Storella, can you tell me if the 
administration supports UNFPA's efforts here and how we do 
that?
    Ambassador Storella. Senator Shaheen, the United States 
does support efforts for women who are particularly vulnerable. 
We are working with a number of different agencies to ensure 
that there are things like gender-appropriate latrines that are 
available.
    Senator Shaheen. But we are not supporting the efforts of 
UNFPA. Is that correct?
    Ambassador Storella. The United States is limiting its 
support for UNFPA at this time. Thank you.
    Senator Shaheen. That is unfortunate given the number of 
women in vulnerable positions who really need that help.
    I do not know if any of you can answer this question, but I 
do know that I have heard from people in New Hampshire and 
other places who have expressed concern about why Aung San Suu 
Kyi has not spoken out more forcefully on this circumstance. 
Mr. Murphy, I guess this is for you. What is your assessment of 
the situation there? Why do you think she has not spoken out 
more forcefully, and what do you think would happen to that 
power sharing arrangement if she did?
    Mr. Murphy. Senator, my parents are residents of New 
Hampshire and asked me the same question. I cannot speak for 
Aung San Suu Kyi.
    What I do know is that in Burma one of the fundamental 
problems we are facing in Rakhine State is widespread prejudice 
and racism directed specifically at the Rohingya. There are 
also many populations that have suffered for decades from 
discrimination, other ethnic minorities, including inside 
Rakhine State the ethnic Rakhine who, as I said earlier, 
dominate the political space, have suffered from centrally 
directed discrimination. It is a very complicated environment.
    We would like to see more champions, more vocal voices for 
the Rohingya and other repressed populations. And we know it is 
a very complicated environment. Speaking out on behalf of the 
Rohingya is a dangerous proposition right now in Burma. It must 
be acknowledged. I do not think that can withhold us from 
criticizing, from urging broader human dignity and respect for 
each other. Our particular message is not just to the 
government, also to the armed forces, local ethnic leaders, but 
also the broad members of the Burmese nation. Reflect on your 
own suffering, your own voyage to overcome authoritarian rule 
and think about your fellow human beings.
    The terrible treatment of the Rohingya is a real Achilles 
heel for this country and its transition. We need a broad 
public campaign of education for all Burmese to understand they 
are in this together. Rohingya are part of the fabric. They 
need to find a way forward for citizenship, for basic human 
rights. And that is a broad message. And we are looking not 
just for a singular champion but for all Burmese to understand 
that human dignity is a real important aspect to this crisis.
    Senator Shaheen. I think that is very well said. So what 
kind of a message do you think it sends to people--could I just 
ask one more question?
    The Chairman. As long as you do not ask him to answer it.
    Senator Shaheen. That is fine. It is a rhetorical 
statement. What kind of a message does it send to the Burmese 
leadership, military, and civilian when in the United States of 
America, we have a travel ban on Muslim majority countries' 
members coming into this country?
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Risch?
    Senator Risch. Well, thank you, Mr. Chairman.
    I want to thank all three of you for your service. I think 
what you are seeing here today is some considerable frustration 
and outrage amongst members of this committee. And there is no 
difference in our feeling, all of the committee, in that 
regard. I mean, we all share this frustration. We all share 
this outrage.
    I want to thank you for your leadership on this issue and 
for speaking with the moral clarity that you have spoken with 
here today. I appreciate that you do not communicate directly 
with the President and cannot pound on his desk and tell him 
what he should say or should not. Some people have tried that 
and not very successfully I have noticed. But as the State 
Department, certainly you speak with the full force and effect 
of the United States foreign policy behind you, and for that, 
we appreciate that.
    Our job, of course, in this committee is to help craft 
foreign policy, and that will be done, I am sure, as we move 
forward through resolutions or statutes that address this 
problem. I think today you have been very clear in assessing 
how difficult this is to do.
    And one of the things that I find that shows the difficult 
nature of this--and these are my words, not yours--but it seems 
like you are facing an entire population, a country, that 
possesses a prejudice that is not appropriate, obviously, and 
it is manifesting itself in some very bad things. Now, I do not 
know how you address that. Certainly sanctions are one way to 
do that. But prejudice is not easily overcome. And frankly, I 
do not know that sanctions are something that are going to 
convince people that they should be thinking differently than 
what they are.
    But in any event, I would like to hear each of you address 
briefly, if you would, this issue that we are dealing with not 
an individual, which we frequently are in some countries, not 
even just the military as we are in some countries, but really 
the civilian government plus the population of the country that 
is really turning a blind eye towards this. Do you have 
suggestions for change in that conduct? Mr. Murphy, let us 
start with you and work our way down.
    Mr. Murphy. Senator, I very much appreciate your 
perspectives. And this current crisis is appalling. It is sad. 
It is outrageous. I want to share with you my frustration does 
not begin with crisis. It began 20 years ago when I first 
visited northern Rakhine State and have worked on and off over 
the course of my career on the particular challenge of the 
repressed Rohingya population. It has been a longstanding 
problem. Unfortunately, of course, frustration does not 
translate to action. We need to take measures to try and 
achieve behavior change and a path forward.
    We have identified something new in the current elected 
government environment, and that is a willingness to try and 
tackle the underlying challenges in Rakhine State, a path to 
citizenship, development for all of the underdeveloped 
populations that reside there. I want to revisit that Rakhine 
Advisory Commission. It is no small measure that this 
commission was formed under the leadership of the former U.N. 
Secretary-General and came up with 88 very specific 
recommendations. The new government has embraced them. We now 
need to see implementation. We need other stakeholders to 
support those recommendations, including the armed forces, 
local leaders in Rakhine State. Those paths forward include 
cooperation and coordination with Bangladesh, development, 
access to basic government services that have been lacking, 
most importantly, a path to citizenship so this disenfranchised 
population has a means to participate and gain from the 
benefits that other citizens enjoy.
    It is not going to be easy. These recommendations are both 
short-term and long-term. But we have a government that is 
willing to do something where previous military regimes simply 
repressed and ignored. That does not mean this government has 
taken all the right steps. We are calling on the government to 
do all that it can to end the violence, stop the hate speech, 
pave a path forward for repatriated refugees, and find a way 
towards national peace.
    This government has also convened something called the 
Panglong Conference, which has been unprecedented since the 
1940s bringing together all representatives throughout the 
country to pave a path forward in ending conflict. As we talk 
about conflict today in Rakhine State, there is ongoing 
conflict in the north in Kachin and Shan States. Burma has been 
at war with itself nonstop for over 70 years, and this 
government is trying to achieve some peace. We need to work 
with those stakeholders who see a better way.
    At the same time, we have talked about targeted sanctions 
and measures for those who are not with the program. We have to 
have a measured, balanced approach I think, Senator.
    Senator Risch. Thank you very much. My time is up. I 
apologize. I really wanted to hear both of your perspectives 
also.
    I would just say thank you again for your service. I know 
how disheartening this is as we listen to these facts. Do not 
give up. Represent as you have and continue with development of 
policy that we will do the best we can to do something about 
this.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thank you to the witnesses. This is an important 
hearing.
    And I missed a little bit of your opening statements, and I 
apologize. But I have just picked up on some rhetoric and 
language that I want to come back to you on.
    I know the State Department is underway with an analysis to 
determine whether what is happening in Burma's ethnic 
cleansing--just for the record, French President Macron at the 
end of September said that what was happening to the Rohingya 
constituted genocide and we must condemn ethnic purification 
which is underway and act. And Turkish President Erdogan has 
also labeled it genocide. I would urge with dispatch us 
determining what we think it is and labeling it.
    I think it was Mr. Murphy--I heard you use the word there 
is vigilante action. When I think of vigilante action, I think 
of sort of rogue individuals not connected with the government 
doing things. But this is clearly action that is not just 
vigilantes, is not just an expression of sort of endemic 
prejudice. But there are official actors involved, including 
the military, in ways that I think are not deniable. That is 
not the same as vigilante action to my understanding of the 
term.
    You also condemned the military's disproportionate 
response. And I think that is a disproportionate response to 
the attack on the Burmese military. But I do not really view 
the role of the Burmese military, at least in the accounts I 
have read, as just being a responder. I mean, I think that they 
have been a participant and often an initiator of many of the 
attacks on the Rohingya. And so I think if we want to be 
careful about language like ``ethnic cleansing'' and 
``genocide''--and we ought to be careful about it--I think we 
also need to be careful about phrases like the military is a 
responder or there is vigilante action because I think all the 
evidence would suggest it has much more of an official sanction 
and imprimatur than that. And I guess that is the basis of the 
work underway in the State Department to determine exactly how 
to label it.
    I want to ask questions about Bangladesh. I am the ranking 
member with Senator Risch on the subcommittee over the region 
of the world that includes Bangladesh at its eastern edge.
    These refugees are largely going to Bangladesh, which has 
its own set of challenges. Could you tell the committee how the 
flow of refugees into Bangladesh is affecting that country? Are 
there things that we can do to help Bangladesh deal with these 
refugees?
    Ambassador Storella. Senator Kaine, the crush of refugees 
entering Bangladesh is unmanageable for almost any country. For 
a country that is strapped for resources, facing limited kinds 
of infrastructure, and also facing difficult weather, it is 
nearly impossible. I think that Bangladesh has done an 
extremely admirable job, first by opening its borders, then by 
working with the international community to permit 
opportunities for assistance to reach the people who are there.
    One of the most important things that Bangladesh has done 
is to work with the UNHCR to undertake a registration of those 
arriving. I spoke with the DCM from the embassy in Bangladesh 
yesterday. He told me 260,000 refugees have been registered. 
13,000 are being registered per day.
    Senator Kaine. And there are about 600,000 that have fled 
by the most recent accounts?
    Ambassador Storella. 603,000 was the last count.
    These registrations are important because they provide 
protection themselves and also provide the basis for subsequent 
repatriation when conditions permit.
    I think that Bangladesh has demonstrated a great deal of 
patience in working with the Burmese authorities. There was a 
meeting today in which the home affairs minister of Bangladesh 
is working with the Burmese to try to pave the way for eventual 
returns.
    Senator Kaine. On the order of magnitude, is that 603,000--
I have heard that as estimated. That is about half of the total 
Rohingya population of Burma, if what I have heard is correct. 
Is that accurate?
    Ambassador Storella. We do not know the exact population 
because there has not been a census. However, we believe that 
the 600,000 plus the number who are already in Bangladesh, 
which brings the total to about a million, is more than half of 
the Rohingya population.
    Senator Kaine. From the USAID perspective, could you offer, 
Ms. Somvongsiri, your perspective from USAID?
    Ms. Somvongsiri. Thank you. Yes. So USAID worked closely 
with POM, which has the lead for the refugee crisis in 
Bangladesh and I agree with Ambassador Storella's assessment in 
terms of the Bangladesh Government's generosity in already an 
impoverished country with a lot of challenges of its own, and 
their ability to take in this massive, massive influx.
    Our program there through Food for Peace is supplementing 
efforts in terms of providing much needed food assistance, 
nutrition, and to give you a sense of the challenges, to be 
able to deliver the food assistance, some of the work is going 
towards coordination and building logistics like roads to 
actually have delivery into this very confined area as 
appropriate.
    One other thing I will mention in this short time is we do 
have a robust development assistance program in Bangladesh. We 
are looking at how to reshape that to help affected communities 
that are broadly in that area.
    Senator Kaine. Mr. Chair, I am not going to ask another 
question, but I will probably do questions for the record to 
flesh out the extent of activities we are doing to help 
Bangladesh and other things that we might do.
    I appreciate your answers.
    Thank you, Mr. Chair.
    The Chairman. Thanks for being here.
    Senator Coons?
    Senator Coons. Thank you, Mr. Chairman and Ranking Member, 
for holding this important hearing and to our witnesses for 
focusing us today on the appalling treatment of Burma's Muslim 
and ethnic minority, the Rohingya. I am grateful to all the 
members of this committee on both sides who have taken concrete 
steps to address this crisis.
    In July, Senator Tillis and I as the co-chairs of the Human 
Rights Caucus held a briefing about the displacement of the 
Rohingya at that point relatively early in this crisis. As has 
just been discussed today, there are more than 600,000 who fled 
Burma because of the military's brutality.
    And there has been a great deal of debate about whether 
Burma State Counsellor Aung San Suu Kyi, by her silence, is 
contributing to this violence. On September 17th, one of her 
fellow Nobel Laureates, Archbishop Desmond Tutu, wrote a moving 
letter in which he said, ``if the political price of your 
ascension to the highest office in Myanmar is your silence, the 
price is surely too steep. A country that fails to acknowledge 
and protect the dignity and worth of all its people is not a 
free country. It is incongruous for a symbol of righteousness 
to lead such a country.''
    I agree with Archbishop Tutu, and I hope the United States 
will continue to speak out, to stand up for human rights, and 
to call for policies and actions that empower and protect the 
Rohingya.
    So, Ambassador, if I might, first to you, you just answered 
questions from Senator Kaine about what is happening on the 
ground in Bangladesh. I would be interested in whether you 
foresee the Rohingya being able to return to Burma and what 
steps you are taking to urge the Burmese Government to 
recognize and protect them upon their return, whether they will 
get documentation of citizenship or residency, and what you 
believe the long-term plan is both in Bangladesh and in Burma 
for their safe treatment and care while refugees and their 
return to their nation of origin, Burma.
    Ambassador Storella. Senator Coons, thank you very much for 
focusing on what is absolutely a critical question, the 
possibility of maintaining the path open to returns.
    I think the very first thing is we must, under all 
circumstances, insist that returns must be the goal and that 
they must be voluntary and that the Government of Burma must 
provide for the security of returning refugees.
    We have seen some elements of progress despite an otherwise 
dismal scenario. Initially, as you know, the Government of 
Burma had said that they would not permit any funds to go to 
any kind of assistance organization whatsoever. They denied 
many of the things that everyone knew was going on. We insisted 
that those funds would not go to the government, that they 
would go to humanitarian organizations by the Red Cross. That 
has now been permitted. The Red Cross now has limited access, 
which is very important because it also shines a light on what 
is going on there.
    Over time, we have seen that the statements of State 
Counsellor Aung San Suu Kyi have evolved. In her statement of 
October 12th, she outlined that the goals were repatriation, 
resettlement, and development. That is in the right direction. 
We need to keep pushing on that.
    As I already mentioned in response to the question by 
Senator Kaine, we as an international community have to 
continue supporting Bangladesh to make it possible for those 
returns to take place. I have worked on returns in other 
countries, including 360,000 Cambodians who returned to 
Cambodia. This is going to require a lot of work at a political 
level to make it possible. But it also requires working with 
the key institutions that will be able to monitor and set the 
conditions to ensure that those returns actually can be 
voluntary, safe, and dignified.
    So there is a path and I think we have to just keep pushing 
down that path and not give up. Thank you.
    Senator Coons. Thank you.
    I am interested also in hearing, as I might, from Ms. 
Somvongsiri about the role religion has played in this crisis 
and what contribution USAID's conflict mitigation efforts might 
make to keep religious tensions from further exacerbating this 
conflict. I think Senator Shaheen asked a relevant question, 
what impact it has on the world response and how our response 
is seen at a time when there is repeat litigation in our courts 
and repeat assertion by our President that we need to have a 
ban on those who might come to our country from majority Muslim 
countries.
    Ms. Somvongsiri. Thank you, Senator Coons, for that 
important question.
    Part of our work in not only northern Rakhine State but 
throughout Burma, throughout the peace process is focused 
specifically on this issue of building tolerance--ethnic and 
religious tolerance--and promoting that. This ties into part of 
Senator Risch's question as well. We do that by building 
dialogue with local civil society groups. We have found nascent 
civil society groups who are more moderate in their views but 
do not have the space to speak out in terms of religious 
tolerance, in terms of cross-community efforts. And our role is 
to create space for that, to strengthen those civil 
organizations and link them up together. Many moderates do not 
feel safe doing that right now, so I think that is a critical 
issue.
    I realize I am out of time here, but we are happy to 
provide more information to you on that and exactly what our 
programs are doing to support that.
    Senator Coons. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    This is a very important hearing. It is an absolute crisis 
that has broken out, and many in the Rohingya community who 
have arrived in Bangladesh following these clearance operations 
claim that Tatmadaw soldiers entered into their villages and 
killed civilians, raped women and girls, and then burned down 
the entire village. International medical teams treating the 
Rohingya in these camps report that some people bear gunshot 
wounds consistent with being shot from behind, and some women 
and girls have injuries consistent with sexual assault.
    It is clear the military bears responsibility for these 
crimes even if perpetrators at lower levels are unknown. 
Burma's commander in chief, Senior General Min, is responsible 
for these systematic crimes.
    Why has the administration been reluctant to add General 
Min to the specially designated nationals and blocked persons 
list?
    Mr. Murphy. Thank you, Senator Markey.
    We share your concern about the abuses and atrocities. 
There is no reason to discount the credible reporting that such 
abuses have taken place. And it is for that reason we have 
announced measures at the State Department on behalf of the 
administration to pursue accountability. And accountability 
will apply to all individuals and entities responsible for 
perpetuating that violence and these abuses. And that applies 
to the armed forces predominantly.
    But in answer to a previous question or comment from 
Senator Kaine, there are other actors. There are the Rohingya 
militants who conducted attacks on August 25th and subsequently 
have attacked fellow citizens. There are local civilians who 
have taken actions into their own hands sometimes in concert 
with the security forces, sometimes, as when I was in Rakhine 
State a few weeks ago, in their own hands. That particular 
circumstance involved attacking a Red Cross shipment, and 
indeed, security forces helped thwart that attack. That was a 
welcome sign. But there are vigilantes who are part of the 
equation.
    All of the military leadership is subject to our 
restrictions for travel to the United States, subject to our 
restrictions for any assistance. That applies to Senior General 
Min Aung Hlaing as well. The armed forces have responded 
disproportionately.
    Senator Markey. Have you yet imposed a travel ban on 
General Min being able to visit the United States? Have you 
imposed that yet?
    Mr. Murphy. Senator, there is an existing travel ban on Min 
Aung Hlaing as a result of his rank and his position.
    That remains in force, and we will, under no circumstances 
right now, pursue any waiver for his ability to travel to the 
United States or gain from assistance from the United States.
    Senator Markey. So what other steps then would you 
recommend that we take, given in the very near past we were, as 
a government, talking about enhanced military cooperation with 
Burma? So that was a signal that was being sent to these people 
that obviously would have given them some assurance that they 
would not have to be concerned about any of their actions. So 
how has that been communicated to them? That is, how has the 
fact that my amendment, working with other members, was 
successful in having that language struck from the legislation 
as it was moving through a couple of months ago--what was the 
interpretation that they made of that action legislatively?
    Mr. Murphy. Senator, the reality is that our military-to-
military relationship with Burma is not normal and has not been 
for many, many decades. There are many existing restrictions.
    What we have communicated to the military in relation to 
the current crisis is that their path to normalization is 
obstructed by their failure to protect local populations. There 
is a conundrum here. We have to acknowledge it. We hear this 
even from government figures inside Burma. The armed forces has 
been isolated for the better part of half a century and not 
exposed to international standards, norms, and regulations. 
There is an argument that they need more exposure to understand 
how to behave properly, how to be a professional military 
forces focused on national defense and not abusing its own 
people.
    Unfortunately, that is going to be for another day. Under 
the current circumstances, we are not exploring engagement or 
enhancing assistance or contact with the military or 
facilitating any travel. That is a clear message that they have 
failed to protect local populations and have contributed to 
violence.
    Senator Markey. And you agree with that message.
    Mr. Murphy. Absolutely. I have delivered that message 
directly to military figures.
    Senator Markey. And their response is?
    Mr. Murphy. Look, I think part of the problem here is a 
failure in Burma among many stakeholders to recognize what has 
taken place--massive displacement, failure to protect citizens 
and residents of the country. That is part of our messaging. 
They need to see exactly what they have done and what the 
results and repercussions are.
    I think the message that may resonate the most is that 
their actions create a greater risk for international 
terrorism. They think they have a terrorism problem now by 
virtue of the kind of attacks that took place on August 25th 
and last year in 2016, which also created population 
displacement. Our message is that is not a real international 
terrorism problem.
    The kind of problem that could visit Burmese territory is a 
real significant challenge they will not be equipped to handle, 
and they are exacerbating that potential risk with these 
actions.
    Senator Markey. But it reminds me very much of El Salvador 
in the 1980s where we were giving money to the government and 
the government had these generals who were actually the leaders 
of the death squads. And even as we were helping them, they 
were still indifferent to our views about how that money should 
be used. So I think this is a big issue that we are going to 
have to really press harder on in terms of their military and 
how they are using the resources they have.
    Thank you, Mr. Chairman.
    The Chairman. We very much appreciate your testimony. I 
have a question, and I know we have some closing comments here. 
I want to thank everybody for participating. And, Senator 
Merkley, thank you for the trip you are getting ready to take 
to the area.
    Obviously, this is all very, if you will, damning to the 
leadership of Burma. Each of you have stated that clearly, and 
the questions that have been asked have all been in that 
direction.
    If Ms. Suu Kyi were here, what would she be saying in 
defense of what has been happening in her own country?
    Mr. Murphy. Senator, I think it is a fair question, but 
honestly I cannot speak for Aung San Suu Kyi. I can relate to 
you in our conversations with her--Secretary Tillerson has 
spoken with her as well--we have tried to impress upon her the 
need to take key actions. I think we have also recognized that 
it is a complicated environment. By describing the 
complexities, that does not absolve the government of its 
responsibility. There are measures the government has taken 
which I think she would point to that we frankly need to 
support. That is hard to describe in this environment when 
there is such a crisis underway that behind the scenes there 
actually is a government that is elected representing the 
people and is taking unprecedented actions, a clear departure 
from authoritarian military rule.
    We do not want to behave now in a way that reverts Burma 
back to military rule. That would not be in the interests of 
the Rohingya population and other vulnerable populations. It 
would not be in the U.S. interests. What we do need to do is 
encourage the kind of actions they are taking now to make a 
better path for the Rohingya. But we need other stakeholders in 
the country to support those actions, primarily the armed 
forces. And also, I hasten to again point out inside Rakhine 
State, ethnic Rakhine leaders need to lower the hate speech, 
realize they need to share this space together. They all need 
to benefit from better treatment and benefit from development 
and international assistance, which has been the course of 
action to date. All international organizations are providing 
assistance to all vulnerable populations, primarily the 
Rohingya, ethnic Rakhine, and half a dozen other ethnic 
minorities in that very complicated space.
    I think, Senator, fundamentally the bottom line is we want 
to help Burma succeed. This is an enormous crisis that 
threatens the transition, could revert Burma backwards in the 
wrong direction. And it is a challenge. We need to see better 
leadership. We need all stakeholders to contribute to that 
process.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. I just really wanted to thank the witnesses 
for their efforts here and for what they are doing in 
representing our country. I do want to make a couple comments.
    The government has a responsibility. I understand it is the 
responsibility of all parties, but when you assume the 
government responsibility, you have to show leadership, and we 
have not seen that from the Burmese Government.
    Number two, in regards to return, Ambassador Storella, let 
me just make this comment. If your village has been burnt down, 
it is going to be difficult to see where you are returning to. 
And if you are going to return to a situation where you are 
going to be in a detention camp, that may not be an acceptable 
safety issue and permanency as to how long that lasts. So I 
would just urge us to be very careful. Yes, we want the people 
to be able to return to their communities, but we have to 
realize it is not only the ethnic problems, we also have 
physical problems and safety problems on their return.
    And lastly, Secretary Murphy, I just want to emphasize--I 
have heard this argument many, many times about we do not want 
to impose sanctions that could hurt the people we are trying to 
help. That is like chalk on a board for me. I heard that 
argument about hurting the Jews in the Soviet Union if we 
impose sanctions, and the Jews are much better off because we 
did impose sanctions. I heard that about the blacks in South 
Africa that we should engage rather than try to use economic 
pressure. I heard that about Iran, that we should not apply 
pressures against Iran. We should engage. We were able to 
engage Iran because we imposed sanctions.
    So I would just urge us to understand that sanctions are 
much preferred than using military, and in many cases, they 
have allowed us to get results without the use of our military 
and that we should not be shy in using America's economic 
strength.
    The Chairman. It is Senator Merkley's birthday. So I am 
going to allow him to ask one question post.
    Senator Merkley. I will just do a 1-minute comment if I 
could.
    Two things that I am very concerned about, Secretary 
Murphy. One is that in regard to our military contacts with 
Burma, we are currently hosting folks from the military in 
comprehensive security response, transitional security 
cooperation, advanced security cooperation. So we do have 
military officers from Burma. And I think we have to ask 
ourselves the question. The military organized the burning of 
nearly 300 villages, often the villages surrounded by a 
platoon, set fire, and then shoot people as they flee.
    I think we need to think about all the levers we have to 
pressure the military. They are really in charge. We can talk 
about the civilian side of Burma, but it is the military that 
runs things, which is part of the reason that some folks say we 
should be careful about criticizing Aung San Suu Kyi because 
she does not have that much power. Well, the military has the 
power. Let us use and look at those levers.
    The second thing is twice you have used the term 
vigilantes,'' which is the official excuse. A few people just 
acting randomly on their own do not surround hundreds of 
villages and shoot people in a coordinated action. I think use 
of that term gives cover to the military in a way that is 
totally unacceptable.
    The Chairman. Thank you.
    Thank you very much for your testimony and service to the 
country.
    We are going to leave the record open until the close of 
business Thursday. If you could answer them fairly promptly, we 
would appreciate it.
    Again, we appreciate very much you being here, and I know 
that this committee is going to want to--we will stay on top of 
this. We look forward to Merkley's report when he is back.
    With that, the meeting is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
              to Hon. Mark Storella by Senator Marco Rubio

    Question 1. According to the United Nations High Commission for 
Refugees (UNHCR), over 600,000 Rohingyas have fled from Burma into 
neighboring Bangladesh as a result of the violence and the U.N. High 
Commissioner for Human Rights has said that the situation ``seems like 
a textbook example of ethnic cleansing:''

   Do you believe that the atrocities committed against the Rohingya 
        by the Burmese military since late August constitutes ethnic 
        cleansing?

    Answer. Numerous, credible reports indicate that since August 25, 
more than 600,000 Rohingya have fled across the border, escaping from 
reported killings, torture, rape, and widespread burnings of their 
villages. Many others have been displaced internally. These are 
terrible atrocities. In some cases, there is evidence that Burmese 
forces have perpetrated these mass atrocities in concert with local 
militias. As Ambassador to the United Nations Nikki Haley said on 
September 28, ``We cannot be afraid to call the actions of the Burmese 
authorities what they appear to be: a brutal, sustained campaign to 
cleanse the country of an ethnic minority.'' We are working with 
international partners to urge that Burma enables unhindered access to 
relevant areas for international humanitarian organizations, including 
UNHCR, and we continue to push for a role for credible outside 
observers in the repatriation process to ensure the conditions are 
right for all refugees and internally displaced people to return to 
their homes and land, safely, and voluntarily.

    Question 2. Were the actions of the Burmese military since late 
August part of a widespread or systematic attack against the civilian 
population?

    Answer. The Department continues to work within the interagency and 
the international community to review the facts and determine the 
nature of government actions in relation to the civilian population.

    Question 3. What steps are the United States taking, in the short-, 
medium-, and long-term, to help stabilize the humanitarian crisis for 
the Rohingya?

    Answer. ur focus is on: (1) facilitating access for humanitarian 
organizations to provide assistance in Rakhine State; (2) working with 
host governments in the region to ensure refugees are offered safe 
haven and treated with respect, and that host countries--especially 
Bangladesh--have what they need to help the refugees; (3) providing 
specific humanitarian contributions made by the State Department in 
coordination with USAID; and (4) ensuring that U.N. and other 
humanitarian agencies have the support they need to respond; and (5) 
calling for and supporting the voluntary return of Rohingya in safety 
and dignity.
    The number one humanitarian priority is gaining access to those in 
need in Rakhine State. Relief agency access to many of the affected 
areas remains severely limited. We take every opportunity to emphasize 
to Burmese officials at all levels of government the need to allow 
humanitarian assistance to those in need. We are working with 
international partners and stakeholders inside Burma to overcome 
challenges that have precluded humanitarian agencies and NGOs from 
reaching affected areas of northern Rakhine State.
    We recognize the huge strain that the influx of refugees is placing 
on Bangladesh. In every meeting with Bangladeshi officials, we thank 
them for opening their borders and hosting hundreds of thousands of 
displaced people fleeing violence in Burma. We also discuss ways to 
support Bangladesh as the Government provides humanitarian assistance 
while balancing its own security concerns. We also urge Bangladesh to 
provide the necessary approvals to additional humanitarian 
organizations so that they can provide life-saving aid and to allow 
UNHCR a bigger role in the response, according to its mandate for 
refugee protection.
    In addition to our diplomatic engagement, the United States is 
providing humanitarian assistance through our U.N. and international 
organization partners to help vulnerable populations affected by the 
Rakhine State violence. Thanks to support from Congress, in FY 2017, 
the United States has contributed nearly $104 million in assistance to 
displaced populations in Burma and for refugees from Burma in the 
region and is planning to announce additional funding shortly.
    The region's capacity to handle the humanitarian crisis is 
dependent on the capacity of the U.N.-led humanitarian response, 
including deployment of emergency response experts and adequate 
staffing levels. In Bangladesh, we continue to advocate with U.N. 
coordinating agencies to increase expert technical staff on the ground 
and strengthen the coordination structure supporting implementation of 
the response plan. We continue to encourage seamless coordination and 
strategic vision for the response in Bangladesh.
    In addition to pressing for immediate action to meet humanitarian 
needs, we are also supporting the Burmese elected government's efforts 
to address inherited challenges in Rakhine State. The Government 
established the Advisory Commission on Rakhine State, led by former 
U.N. Secretary General Kofi Annan, which in August produced a set of 
recommendations for addressing the complex issues in Rakhine State that 
have ignited many crises over past decades. The Commission's 
recommendations provide valuable ways forward in addressing 
underdevelopment, shortcomings in government services, access to 
justice, and ensuring a credible, transparent citizenship process for 
all people in Rakhine State. We continue to call for the Burmese 
Government to implement the Annan Commission's recommendations.

    Question 4. Is the United States considering re-imposing targeted 
sanctions on Burma--specifically in response to its resumption of 
egregious violations of freedom of religion?

    Answer. In accordance with Burma's long-time designation as a 
Country of Particular Concern for engaging in and tolerating 
systematic, ongoing and egregious violations of religious freedom, the 
administration continues to maintain a prohibition against arms sales 
to Burma. The administration is also considering a range of additional 
options. Any tools the United States uses to address the situation have 
to be carefully targeted to be effective in the complex environment. We 
do not want to make the crisis worse for vulnerable populations, or 
inhibit the flow of aid and assistance, and we want to continue to 
support those in Burma who are working to improve the situation in 
Rakhine, as well as to advance peace and broader democratic reforms.

    Question 5. The tools provided to the United States under the 
International Religious Freedom Act are frequently underutilized. For 
Burma, this would mean imposing sanctions for religious freedom 
violations above and beyond any existing sanctions regime, including 
arms embargoes. These sanctions could include asset freezes and visa 
denials for specific individuals, agencies, or military units known to 
have committed particularly severe violations of religious freedom:

   Has the United States considered taking specific actions beyond 
        existing sanctions as a direct response to religious freedom 
        violations?

    Answer. In accordance with Burma's long-time designation as a 
Country of Particular Concern for engaging in and tolerating 
systematic, ongoing and egregious violations of religious freedom, the 
administration continues to maintain a prohibition against arms sales 
to Burma. Whatever tools the United States uses to address the 
situation have to be carefully targeted to be effective in the complex 
environment. We do not want to make the crisis worse for vulnerable 
populations, or inhibit the flow of aid and assistance, and we want to 
continue to support those in Burma who are working to improve the 
situation in Rakhine, as well as to advance peace and broader 
democratic reforms.

    Question 6. What is the U.S. Government doing to address the broad 
challenges to religious freedom across Burma that have marginalized 
religious and ethnic minorities in the country?

    Answer. Since its transition to civilian government in 2016, Burma 
has made progress in protecting the rights of religious minorities, 
despite significant protests from politically powerful ultranationalist 
Buddhist groups. On May 23, the Burmese Government disbanded the 
Association for the Protection of Race and Religion (MaBaTha) because 
of its frequent religious hate speech. In a similar vein, on March 10, 
2017, the Government prohibited prominent Buddhist ultranationalist 
monk Wirathu from giving public anti-Muslim diatribes, though he defied 
the prohibition.
    Burma has also taken steps to increase the ability of Muslims to 
worship and live in peace. In January, the Burmese Government allowed 
Muslims to hold ceremonies across the country to commemorate the birth 
of the Prophet Muhammad. In previous years such ceremonies were 
restricted to Rangoon and Mandalay. After Buddhist nationalists used 
violence to force two madrasas to close, authorities reacted swiftly, 
arresting two people and issuing warrants for five more, including two 
monks. On May 24, the Government released Muslim interfaith activists 
Pwint Phyu Latt and Zaw Zaw Latt from prison as part of an amnesty 
program. Christians, who make up at least six percent of the Burmese 
population, can generally freely practice their faith, engage in 
commerce, and hold government office. One of Burma's two Vice 
Presidents is Christian.
    However, in Rakhine State, the Rohingya minority has reportedly 
faced mass atrocities resulting in the forcible displacement of more 
than 600,000 people to Bangladesh. In addition, ongoing ethnic 
conflicts in Kachin and Shan States have led to minority communities 
facing violence, displacement, and a denial of their human rights. The 
United States is committed to supporting Burma's peace process to end 
the violence and ensure that minority groups in Burma enjoy peace and 
stability.

    Question 7. As the United States crafts a response to this crisis, 
what factors are you taking into account?

    Answer. Through the interagency policy coordination process, the 
U.S. Government is taking into account numerous factors, including 
accountability for human rights abuses, humanitarian imperatives, and 
broader U.S. interests in supporting Burma's democratic transition. The 
U.S. is focusing on supporting the humanitarian response through 
funding and concerted advocacy to overcome roadblocks to an effective 
response, such as restricted humanitarian access in northern Rakhine 
State. The U.S. continues to advocate with the Government of Burma to 
create the conditions allowing a safe, voluntary, and dignified return 
as the main durable solution for the Rohingya population.

    Question 8. As the Burmese Government is picking only a select few 
humanitarian partners, how do you plan to engage the Burmese Government 
on expanding the number of humanitarian partners allowed to access 
populations and deliver programming and assistance?

    Answer. We take every opportunity to emphasize to Burmese officials 
at all levels of government the importance of humanitarian access. The 
White House, State Department, and the U.S. Mission to the U.N. have 
issued statements calling for immediate unhindered humanitarian access 
in Burma. Although the central Burmese Government's commitment to do so 
is encouraging, we continue to raise concerns with the Rakhine State 
Government and seek further implementation on the ground. The Red Cross 
Movement (RCM) has been allowed to provide humanitarian assistance in 
northern Rakhine State since late August. However, they cannot assess 
or meet all of the humanitarian needs in Rakhine State, and we continue 
to stress to the Burmese Government that U.N. agencies and 
international NGOs will also need operational space. In late October, 
the Burmese authorities granted the World Food Programme permission to 
resume food distributions in northern Rakhine State. However, 
bureaucratic challenges remain and actual implementation has yet to 
materialize.

    Question 9. Is the State Department tracking individuals who are 
believed to have participated in these atrocities?

    Answer. We are evaluating reports from many sources, both open 
source and internal to the United States Government. We are assessing 
authorities under the JADE Act to consider economic options available 
to target individuals associated with atrocities. Pursuant to the Leahy 
Law, we find all units and officers involved in operations in northern 
Rakhine State to be ineligible to receive or participate in any U.S. 
assistance programs. We are consulting with allies and partners on 
accountability options at the U.N., the U.N. Human Rights Council, and 
other appropriate venues, and we are exploring additional 
accountability mechanisms available under U.S. law.

    Question 10. Does the State Department plan to hold Burmese 
officials involved in the atrocities accountable? If so, how?

    Answer. Pursuant to the Leahy Law, we have found all units and 
officers involved in recent operations in northern Rakhine State to be 
ineligible to receive or participate in any U.S. assistance programs. 
The administration is considering a range of further options. Whatever 
tools the United States uses to address the situation have to be 
carefully targeted to be effective in the complex environment. We do 
not want to make the crisis worse for vulnerable populations, or 
inhibit the flow of aid and assistance, and we want to continue to 
support those in Burma who are working to improve the situation in 
Rakhine, as well as to advance peace and broader democratic reforms.



                               __________


Responses to Additional Questions for the Record Submitted to Hon. Mark 

      Storella and W. Patrick Murphy by Senator Benjamin L. Cardin

    Question 1. Deputy Assistant Secretary Murphy said yesterday that 
progress is being made on humanitarian access, specifically referencing 
a positive statement by the State Counsellor on October 12.

   Beyond this positive rhetorical statement, can you update the 
        committee on what concrete progress has been made on 
        humanitarian access? Has the Burmese Government agreed to allow 
        additional international aid organizations access to Rakhine 
        state beyond the Red Cross movement? If not, what concrete, 
        demonstrable progress can we expect in coming days on 
        humanitarian access?

    Answer. Since late August, the Red Cross Movement (RCM) agencies 
have maintained regular access to provide humanitarian assistance in 
northern Rakhine State. In addition, three international NGOs and two 
local NGOs report intermittent access to affected populations in 
northern Rakhine State. The RCM agencies continue to scale up response 
operations to meet the growing humanitarian needs and have reached more 
than 40,000 people with food assistance and an estimated 36,000 people 
with emergency relief commodities. The U.N. World Food Program (WFP) 
reached approximately 118,000 people in central Rakhine State in 
October and plans to launch its November distributions in the coming 
days. WFP is also engaging in discussions with Burmese Government 
authorities to resume food distributions in northern Rakhine State.

    Question 2. According to the USAID Burma Complex emergency fact 
sheet dated 30 September 2017, ``UNICEF is also training traditional 
birth attendants and auxiliary midwives in newborn and maternal health 
care and conducting health and hygiene promotion activities.'' UNFPA is 
the lead U.N. agency delivering maternal health care. Has UNICEF been 
put in the position to take over some of UNFPA's mandate due to the 
USG's lack of support to UNFPA?

    Answer. In Bangladesh, humanitarian response for Rohingya refugees 
in Cox's Bazar district is coordinated through the Inter-Sector 
Coordination Group (ISCG), a sector-based body led by the International 
Organization for Migration (IOM) with support from the U.N. Office for 
the Coordination of Humanitarian Assistance (OCHA). Under the ISCG, 
UNFPA is the sub-sector lead for gender-based violence (GBV) and 
assists in coordinating humanitarian agencies implementing activities 
to respond to the needs of survivors of GBV and to ensure prevention of 
GBV. UNICEF serves as the sector lead for nutrition, sub-sector lead 
for child protection, and co-lead for education and water, sanitation, 
and hygiene (WASH). As lead and implementer in nutrition and child 
protection sectors, UNICEF's role in the response includes attention to 
maternal health and general health and hygiene promotion to provide 
appropriate support for the feeding and care of infants, young 
children, and their mothers as a critical means of supporting child 
survival, growth, and development to prevent malnutrition, illness, and 
death. In its operations elsewhere in the region, UNICEF has frequently 
trained traditional birth attendants and midwives in maternal health 
and implemented WASH activities; thus, UNICEF's activities in response 
to the Rohingya crisis are no different from its established practice 
and mandate. Under the ISCG, UNICEF and UNFPA's operations are 
coordinated and complementary.

    Question 3. According to the same fact sheet, ``State/PRM partners 
report an increasing number of SGBV survivors among new arrivals, who 
are in need of health and psychological support. In addition to SGBV 
survivors, many arrivals have experienced severely traumatic events and 
are in need of critical mental health and psychosocial support. Since 
the influx began, IOM and other State/PRM partners have responded to 
180 SGBV cases, nearly 1,260 people in need of psychological first aid, 
and more than 4,900 extremely vulnerable individuals--including SGBV 
survivors and individuals vulnerable to exploitation, SGBV, or 
trafficking.'' UNFPA is the lead U.N. agency on S/GBV response in 
crises:

   Is PRM working with UNFPA on this? If not, is PRM creating a 
        parallel response because of their inability to work with 
        UNFPA?

    Answer. In Bangladesh, humanitarian response for Rohingya refugees 
in Cox's Bazar district is coordinated through the Inter-Sector 
Coordination Group (ISCG), a sector-based body led by the International 
Organization for Migration (IOM) with support from the U.N. Office for 
the Coordination of Humanitarian Assistance (OCHA). PRM is funding 
partners whose activities are coordinated through the ISCG system.
    Under the ISCG, UNFPA is the sub-sector lead for gender-based 
violence (GBV). In this role, UNFPA assists in coordinating 
humanitarian agencies implementing activities to respond to the needs 
of survivors of GBV and to ensure prevention of GBV. These agencies 
include PRM-funded partners implementing GBV activities, such as 
UNICEF, UNHCR, and IOM. PRM closely monitors the impact of humanitarian 
assistance under the ISCG to ensure that implementation is well-
coordinated to meet the needs of vulnerable populations without 
duplication of services or creation of a parallel response.

    Question 4. How is the United States advocating for humanitarian 
access into Rakhine state? More specifically how is the State 
Department working to ensure the Government of Burma to provide travel 
permits to U.N. agencies to allow for humanitarian access into northern 
Rakhine state in particular?

    Answer. The number one humanitarian priority is gaining access to 
those in need in Rakhine State. Although the Government of Burma has 
granted some international NGOs travel authorizations to work in 
central Rakhine State, other government regulations and procedures are 
hindering international NGOs from accessing all internally displaced 
person (IDP) camps and affected communities. In addition, safety 
concerns, a climate of intimidation, and restrictions on movements 
prevent many local Burmese staff of these organizations from accessing 
those in need. We take every opportunity to emphasize to Burmese 
officials at all levels of government the importance of humanitarian 
access. In addition to these discussions with our Burmese counterparts, 
the White House, State Department, and the U.S. Mission to the U.N. 
have issued statements calling for immediate unhindered humanitarian 
access. The United States has specifically called on the Burmese 
Government to simplify and streamline the travel authorizations process 
and although the central Burmese Government's commitment to do so is 
encouraging, we continue to raise concerns with the Rakhine State 
Government and seek further implementation on the ground.

    Question 5. According to recent reports the Governments of 
Bangladesh and Burma have reached an agreement to ``halt the outflow of 
[Burmese] residents to Bangladesh''--is the United States concerned 
that this agreement could prevent vulnerable Rohingya from fleeing the 
violence in Rakhine state?

    Answer. We are aware of these media reports; however, there is no 
indication that Burma or Bangladesh have closed their borders. Since 
these media reports, several thousand Rohingya refugees have arrived in 
Bangladesh.

    Question 6. UNHCR has said that forced returns are unacceptable and 
that returns eventually need to be considered and resolved but it does 
not appear that this situation is in place. What is the State 
Department doing to ensure that Rohingya are not forced to return from 
Bangladesh against their will?

    Answer. The State Department has advocated with both the Burmese 
and the Bangladeshi Governments at the highest levels to ensure that 
Rohingya refugees can return voluntarily, safely, and with dignity. The 
State Department has also urged the Government of Burma to create the 
conditions allowing for such returns by addressing the root causes of 
the displacement, providing access to equal rights and citizenship for 
the Rohingya, and providing access to livelihoods opportunities.

    Question 7. Does that United States anticipate it will be providing 
additional funding to support the humanitarian response?

    Answer. Yes. PRM and USAID are planning additional funding for the 
refugee response. PRM will make additional contributions to the 
International Organization for Migration (IOM), the U.N. Children's 
Fund (UNICEF), and the U.N. High Commissioner for Refugees (UNHCR). 
USAID/FFP is also planning a contribution to UNICEF in the nutrition 
sector.

    Question 8. Is the U.S. Government supporting any efforts to try 
and track/confirm the number of IDPs in Rakhine State?

    Answer. We are in regular communication with Burmese and 
Bangladeshi Government authorities and U.N. and international NGO 
partners working in both Burma and Bangladesh to obtain daily and 
weekly situation reports and official government estimates to ascertain 
the number of displaced individuals. U.N. and international NGO 
partners work closely with Bangladeshi authorities to track the number 
of new arrivals, assess their needs, and document beneficiary data. 
These figures are compared with the known figure of approximately 
800,000 Rohingya residing in northern Rakhine State before the previous 
outbreak of violence in October 2016, leading the U.N. to estimate that 
over 100,000 Rohingya remain in northern Rakhine State. The precise 
number of internally displaced persons (IDPs) in Rakhine State remains 
unknown due to ongoing population movements, limited humanitarian 
access, and a lack of recent official estimates from the Government of 
Burma. In September, the Rakhine State Government estimated the current 
crisis had created approximately 200,000 new IDPs. However, many of 
those displaced persons have since crossed into Bangladesh. We fund 
U.N. and international NGO partners to provide humanitarian assistance, 
which includes efforts to track and confirm the number of IDPs in 
Rakhine State.

    Question 9. What is the United States Government doing to support 
the Government [of] Bangladesh and host communities in Bangladesh to 
mitigate existing or potential tensions that could put displaced 
civilians at further risk?

    Answer. The U.S. Government has encouraged the Government of 
Bangladesh to engage with the World Bank and the United Nations on 
medium- and long-term planning for the refugee response and on 
sustainable development to benefit both the host communities and 
refugees in refugee settlement areas. In addition, through the 
contribution to the International Organization for Migration (IOM), PRM 
is supporting the non-governmental organization Solidarites 
International (SI) to address the needs and vulnerabilities of the host 
communities impacted by the humanitarian crisis in Cox's Bazar. SI is 
providing emergency water, sanitation, and hygiene service delivery and 
distribution of basic products in the host community areas most 
affected by the recent influx of Rohingyas. This, alongside robust U.S. 
funding for the emergency response, will help mitigate the rise of 
tensions between host communities and refugees.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Mark Storella by Senator Robert Menendez

    Question 1. While I recognize this was covered at the hearing: do 
you believe the systematic attacks on the Rohingya population 
constitute ethnic cleansing? What factors are you considering in your 
determination.

    Answer. The facts indicate that since August 25, over 600,000 
Rohingya have been forced across the border, fleeing for their lives 
from reported killings, torture, rape, and widespread burnings of their 
villages. Many others have been displaced internally. These are 
terrible atrocities. In some cases, there is evidence that Burmese 
forces have perpetrated these mass atrocities in concert with local 
militias.
    Ambassador to the United Nations Nikki Haley said on September 28, 
``We cannot be afraid to call the actions of the Burmese authorities 
what they appear to be: a brutal, sustained campaign to cleanse the 
country of an ethnic minority.'' Secretary Tillerson has been clear in 
saying that violence and persecution ``have been characterized by many 
as ethnic cleansing.'' The Secretary also observed while in Burma on 
November 15 that what has occurred in Rakhine State that led to so many 
people fleeing has a number of characteristics of crimes against 
humanity. We are encouraging an independent investigation to understand 
the motivations for these crimes and hold accountable those 
responsible.

    Question 2. Do you believe the Government of Burma is 
democratically controlled? Who do you believe controls the military?

    Answer. Successful elections in 2015 yielded the first elected, 
civilian-led government in more than half a century. Per the 2008 
Constitution produced by the previous military regime, however, the 
military has full authority over the armed forces, as well as the 
Ministries of Defense, Home Affairs, and Border Affairs, and twenty-
five percent of parliamentary seats in union-, regional-, and state-
level parliaments. The crisis in Rakhine State reminds us that the 
democratic transition remains in process, and that progress is fragile. 
The civilian, Union-level government has shown limited ability to 
influence the military or Rakhine State local administrative 
authorities regarding the issues facing the Rohingya.
    Burma's civilian leadership has been trying to address five decades 
of military misrule and inherited challenges, including long-standing 
inter-ethnic tensions in Rakhine State. In spite of constitutional 
constraints, the democratically elected civilian government has made 
some progress in addressing difficult inherited challenges. They have 
released many political prisoners, amended some old laws limiting 
freedom of expression, and carried out long-overdue economic reforms. 
Perhaps most importantly, there has also been a marked decrease in 
high-level corruption among senior civilian government officials. None 
of this excuses inaction or failings by the civilian government on 
Rakhine or any other issue.

    Question 3. Press freedom has not been a feature of Burma, with the 
state controlling main broadcasters and having a monopoly on 
telecommunications. Reporters Without Borders notes that self-
censorship continues in connection to government officials and military 
officers. Independent human rights groups have noted that Facebook and 
social media have played an instrumental role in promoting negative 
narratives about the Rohingya and Muslim population, often fueling the 
violence we have witnessed over the past year. In a recent New York 
Times interview, U Pe Myint, the nation's information minister, 
insisted the public needs to be guided saying ``It looks rather like 
indoctrination, like in an authoritarian or totalitarian state.''

   What is your assessment of the Government's role in using media and 
        social media to promote and perpetuate negative narratives and 
        stereotypes of Burma's Muslim population? Do you assess that 
        the Government is utilizing state-run or social media to 
        encourage the population to perpetrate violence against the 
        Rohingya? What should the United States response be?

    Answer. Social media is the predominant method by which information 
is exchanged on a mass scale, and has been a vehicle for amplifying 
negative stereotypes of the Rohingya. We continue to call on all 
involved to avoid inflammatory rhetoric that only serves to exacerbate 
a tense situation.

    Question 4. What is the Department's assessment of ARSA? Does it 
have ties to international terrorist organizations?

    Answer. The Arakan Rohingya Salvation Army (ARSA) first came to 
prominence in late 2016, when they took responsibility for deadly 
attacks on Burmese security forces. The self-proclaimed head of ARSA, 
Ata Ullah, is a foreign-born Rohingya. We understand he spent formative 
years in Pakistan and Saudi Arabia. ARSA claims to have no ties to 
transnational terrorist organizations. We know that ARSA has claimed 
responsibility for roughly 30 coordinated attacks on Burmese security 
forces on August 25 that killed 12. Reports from Burmese Government 
officials and sources inside the Rohingya community also suggest that 
ARSA may be responsible for killing some members of the Rohingya 
community it suspected of collaborating with the Government. We assess 
ARSA has limited resources and technical capability, but is actively 
working to expand those capabilities. We have not seen any credible 
evidence that ARSA has ties to international terrorist organizations.

    Question 5. Do you believe that the displaced Rohingya population 
is more susceptible to ascribe to violent ideologies in response to 
their treatment by the Burmese Government? What steps are we and the 
international community taking to ensure that these vulnerable 
populations are not exploited by those seeking to do harm on an 
international level?

    Answer. We have not seen compelling evidence that the displaced 
Rohingya population is particularly susceptible to extremist appeals in 
response to their treatment by the Burmese Government. The U.S. 
Government responded quickly to the urgency of the Rakhine State Crisis 
to meet the needs of the displaced populations. In FY 2017, we provided 
nearly $104 million in humanitarian assistance for displaced people in 
and from Burma, including Rohingya populations. This funding includes 
long-standing support for displaced persons in Burma and the region, 
and nearly $40 million in life-saving emergency assistance in direct 
response to the Rakhine State crisis. This reflects the U.S. commitment 
to address the unprecedented magnitude of suffering and urgent 
humanitarian needs. Besides our support for life-saving humanitarian 
assistance, we consistently engage with the Burmese Government to 
address the root causes and develop sustainable solutions.
    We are also working closely with Bangladesh's civilian law 
enforcement through a community-policing program in Chittagong and 
support the Global Community Engagement and Resilience Fund to support 
grassroots projects to fortify the ability of these communities to 
resist appeals to violent extremism.

    Question 6. It is estimated that more than half a million Burmese 
Rohingya have already left the country. Recently, a spokesman for the 
National League for Democracy stated that ``these Muslims are illegal 
immigrants from Bangladesh and this crisis is an infringement of our 
sovereignty.'' It is likely that the Burmese Government will utilize 
every tool available to deny citizenship rights to people eventually 
seeking to return.

   How are you engaging with the Burmese and Bangladeshi Governments 
        about the return of the displaced populations? What is the 
        U.N.'s posture? How are you working with international partners 
        on the ground to respond to these increasing numbers of 
        refugees as well as eventual return?

    Answer. We are engaging with the Burmese and Bangladeshi 
Governments to work in close cooperation on a coordinated plan for the 
repatriation of displaced populations that would allow for those who 
have fled to Bangladesh or are otherwise internally displaced in Burma 
to voluntarily return to their places of origin in safety and dignity.
    The U.N. is also calling for both governments to facilitate safe, 
dignified, and voluntary returns. The U.S. Government is providing 
funding for the humanitarian response plans of U.N. and international 
NGO partners to provide humanitarian assistance to meet the needs of 
increasing numbers of refugees, while urging the Burmese and 
Bangladeshi Governments to reach agreement on a voluntary repatriation 
process that ensures safe and secure conditions in Rakhine State for a 
sustainable return.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Hon. Mark Storella by Senator Jeff Merkley

    Question 1. What is the administration's 5 to 10 year plan for 
addressing the refugee crisis in Bangladesh?

   What engagements have you had with the Bangladesh Government to 
        discuss their short, medium, and long term plan for the 
        Rohingya refugees?
   Have you dissuaded them from a proposal to create a permanent 
        ``mega-camp?''

    Answer. The Inter-Sector Coordination Group (ISCG), the 
coordination body for the refugee response, is leading efforts to plan 
sector activities through the end of December 2018. This planning 
process includes USG-funded partners such as the International 
Organization for Migration, the U.N. High Commissioner for Refugees, 
and the U.N. Children's Fund. The U.S. Government has encouraged the 
Government of Bangladesh to engage with the World Bank and the United 
Nations on medium- and long-term planning for the refugee response and 
sustainable development in the areas where refugees are residing. The 
U.S. continues to advocate with the Government of Burma to create the 
conditions allowing voluntary return as the main durable solution for 
the Rohingya population. The Government of Bangladesh has shown some 
receptiveness to concerted advocacy by the U.S. Government, other 
donors, and humanitarian partners on the dangers of a mega-camp. The 
Government now appears willing to consider options for dispersing the 
population throughout the Cox's Bazar district.

    Question 2. Please describe what PRM and the State Department are 
doing with respect to ending statelessness of the Rohingya population, 
a core issue in this crisis?

   What did the State Department do to address the statelessness of 
        the Rohingya population during previous conflicts in 2012, 2015 
        and 2016 when hundreds of thousands of Rohingya fled to 
        Bangladesh?

    Answer. PRM is the largest single donor of the Office of the U.N. 
High Commissioner for Refugees (UNHCR), the international organization 
mandated to prevent and reduce statelessness. Addressing the plight of 
the stateless Rohingya is among our top priorities. The Rohingya 
population was rendered stateless as a result of the 1982 Citizenship 
Law which denied their status as an officially recognized ethnic group 
in Burma. After consistent advocacy with the Burmese Government to 
address the root causes of the 2012 violence and develop a path to 
citizenship as a durable solution, a pilot citizenship verification 
process was initiated in June 2014 Myebon Township in Rakhine State but 
yielded very limited results. Other attempts have been stymied by the 
evolving dynamics of the security environment and the eruption of 
violence over the past five years in northern Rakhine State. Members of 
the Rohingya community generally refused to participate in the 
verification exercise for various reasons including the rejection of 
self-identification, lack of transparency, and limited tangible 
outcomes by those who have participated in the national verification 
process.
    The State Department continues to urge Burmese Government officials 
to conduct a citizenship verification process as a part of a 
comprehensive approach that addresses the complex dynamics and needs of 
all communities in Rakhine State. Concerns about self-identification, 
freedom of movement, access to services and durable solutions for those 
displaced need to be addressed. Increased efforts to enhance trust and 
confidence-building measures, along with peaceful co-existence and 
social inclusion measures between the Rohingya and Rakhine communities 
are also needed.



                               __________

     Responses to Additional Questions for the Record Submitted to 
              Hon. Mark Storella by Senator Cory A. Booker

    Question 1. Burmese policy documents show restrictions on 
Rohingya's ``movement, marriage, childbirth, home repairs and 
construction of houses of worship.''
    Even prior to this crisis, access to emergency health care and 
humanitarian aid was highly restricted, leading to numerous reports of 
preventable deaths. Hate speech and violent propaganda continue to 
imperil Rohingya, as well as other Muslims in the country.

   Do you believe that the Burmese military and, therefore its 
        government, have engaged in or currently engage in 
        institutionalized racial and/or religious discrimination?

    Answer. A fundamental problem in Rakhine State is widespread 
prejudice and racism among the general population directed specifically 
at the Rohingya. Muslims in Burma, including the Rohingya in Rakhine 
State, have for decades faced severe discrimination and restrictions on 
their access to citizenship, and ability to engage in economic 
activity, obtain an education, and register births, deaths, and 
marriages. Many of these restrictions come from local orders from the 
municipal government and the military.While the Constitution guarantees 
every Burmese citizen ``the right to freely profess and practice 
religion subject to public order, morality or health and to the other 
provisions of this Constitution,'' religious discrimination still 
exists for Christian, Muslim, Hindu, and other religious minorities 
regarding employment opportunities, business ownership, construction of 
religious buildings of worship and other areas. This discrimination is 
ongoing and societal, but the Government has taken some steps to 
improve religious freedom. On May 23, the Burmese Government disbanded 
the Association for the Protection of Race and Religion (MaBaTha) 
because of its frequent religious hate speech. In a similar vein, on 
March 10, the Government prohibited prominent Buddhist ultranationalist 
monk Wirathu from giving public anti-Muslim diatribes. Burma has also 
taken steps to increase the ability of Muslims to worship and live in 
peace. In January, the Burmese Government allowed Muslims to hold 
ceremonies across the country to commemorate the birth of the Prophet 
Muhammad. In previous years such ceremonies were restricted to Rangoon 
and Mandalay. After Buddhist nationalists used violence to force two 
madrasas to close, authorities reacted swiftly, arresting two people 
and issuing warrants for five more, including two monks. On May 24, the 
Government released Muslim interfaith activists Pwint Phyu Latt and Zaw 
Zaw Latt from prison as part of an amnesty program. Christians, who 
make up six percent of the Burmese population, can generally freely 
practice their faith, engage in commerce, and hold government office. 
One of Burma's two Vice Presidents is Christian.

    Question 2. To what extent is this humanitarian crisis a 
culmination of these institutionalized policies of racial and religious 
discrimination?

    Answer. Given the context of longstanding severe discrimination 
against the Rohingya population, reports of extrajudicial killings, 
sexual violence, and burning of Rohingya villages by security forces 
and non-Rohingya civilians are particularly alarming. It is clear that 
longstanding discrimination against the Rohingya, not only by 
government and military actors, but also by other communities in 
Rakhine State and across Burma, has played a key role in creating and 
sustaining this crisis.

                               __________


     Responses to Additional Questions for the Record Submitted to 
         Ms. V. Kate Somvongsiri by Senator Benjamin L. Cardin

    Question 1. Deputy Assistant Secretary Murphy said that progress is 
being made on humanitarian access, specifically referencing a positive 
statement by the State Counsellor on October 12. Beyond this positive 
rhetorical statement, can you update the committee on what concrete 
progress has been made on humanitarian access? Has the Burmese 
Government agreed to allow additional international aid organizations 
access to Rakhine State beyond the Red Cross movement? If not, what 
concrete, demonstrable progress can we expect in coming days on 
humanitarian access?

    Answer. Since late August, the Red Cross Movement (RCM) agencies 
have maintained regular access to provide humanitarian assistance in 
northern Rakhine State. In addition, three international NGOs and two 
local NGOs report intermittent access to affected populations in 
northern Rakhine State. The U.N. World Food Program (WFP) reached 
approximately 118,000 people in central Rakhine State in October. On 
October 26, the Government of Burma granted permission to World Food 
Programme (WFP) to resume food distribution is in northern Rakhine 
State. WFP has resumed food distributions and plans to assist 36,000 
people in northern Rakhine State in November, in addition to 100,000 
beneficiaries to be reached by the Red Cross Movement. However, there 
is still an urgent need for access by a broader range of actors to 
ensure that adequate assistance reaches all communities in need.

    Question 2. According to the USAID Burma Complex emergency fact 
sheet dated 30 September 2017, ``UNICEF is also training traditional 
birth attendants and auxiliary midwives in newborn and maternal health 
care and conducting health and hygiene promotion activities.'' UNFPA is 
the lead U.N. agency delivering maternal health care. Has UNICEF has 
been put in the position to take over some of UNFPA's mandate due to 
the USG's lack of support to UNFPA?

    Answer. In Bangladesh, humanitarian response for Rohingya refugees 
in Cox's Bazar district is coordinated through the Inter-Sector 
Coordination Group (ISCG), a sector-based body led by the International 
Organization for Migration (IOM) with support from the U.N. Office for 
the Coordination of Humanitarian Assistance (OCHA). Under the ISCG, 
UNFPA is the sub-sector lead for gender-based violence (GBV) and 
assists in coordinating humanitarian agencies implementing activities 
to respond to the needs of survivors of GBV and to ensure prevention of 
GBV. UNICEF serves as the sector lead for nutrition, sub-sector lead 
for child protection, and co-lead for education and water, sanitation, 
and hygiene (WASH). As lead and implementer in nutrition and child 
protection sectors, UNICEF's role in the response includes attention to 
maternal health and general health and hygiene promotion to provide 
appropriate support for the feeding and care of infants, young 
children, and their mothers as a critical means of supporting child 
survival, growth, and development to prevent malnutrition, illness, and 
death. In its operations elsewhere in the region, UNICEF has frequently 
trained traditional birth attendants and midwives in maternal health 
and implemented WASH activities; thus, UNICEF's activities in response 
to the Rohingya crisis are no different from its established practice 
and mandate. Under the ISCG, UNICEF and UNFPA's operations are 
coordinated and complementary.
    USAID has not provided any funding to UNFPA in Burma. USAID-
supported UNICEF training activities continue and are unaffected by 
U.S. Government policy regarding UNFPA.

    Question 3. According to recent reports the Governments of 
Bangladesh and Burma have reached an agreement to ``halt the outflow of 
[Burmese] residents to Bangladesh''--is the United States concerned 
that this agreement could prevent vulnerable Rohingya from fleeing the 
violence in Rakhine state?

    Answer. We are aware of these media reports; however, there is no 
indication that Burma or Bangladesh has closed its borders. Since these 
media reports, several thousand Rohingya refugees have arrived in 
Bangladesh.

    Question 4. How is the United States advocating for humanitarian 
access into Rakhine State? More specifically how is the State 
Department working to ensure the Government of Burma to provide travel 
permits to U.N. agencies to allow for humanitarian access into northern 
Rakhine State in particular?

    Answer. The U.S. Government is working with the diplomatic 
community, the U.N., and other international organizations to urge 
Burmese authorities to provide unfettered humanitarian access and 
ensure humanitarian assistance reaches all communities in need. USAID 
and PRMK communicate daily with international and local partners as 
well as U.N. agencies and other donors. USAID and PRM staff provides 
daily updates and formulate advocacy messages for the Ambassador to 
deliver to high-level Government of Burma representatives, U.N., 
international non-governmental organizations, and other donors. In 
addition to these discussions with our Burmese counterparts, the White 
House, State Department, and the U.S. Mission to the U.N. have issued 
statements calling for immediate unhindered humanitarian access. The 
United States has specifically called on the Burmese Government to 
simplify and streamline the travel authorizations process and although 
the central Burmese Government's commitment to do so is encouraging, we 
continue to raise concerns with the Rakhine State Government and seek 
further implementation on the ground.

    Question 5. Does that United States anticipate it will be providing 
additional funding to support the humanitarian response?

    Answer. In Burma, the primary challenge to the delivery of 
humanitarian assistance is not resources, but access. There is 
currently limited humanitarian access to northern Rakhine State for 
USAID partners with the exception of World Food Programme; however, 
USAID's partners have maintained a presence in Rakhine and are ready to 
resume activities in northern Rakhine as soon as access is made 
available. USAID will continue to monitor the situation closely, 
coordinate with other donors, and explore whether additional funding is 
needed. The Red Cross Movement agencies have maintained access to 
northern Rakhine State and are providing critical humanitarian 
assistance with support from the State Department's Bureau of 
Population, Migration, and Refugees (State/PRM).
    In Bangladesh, the needs remain immense. PRM is the primary 
responder to refugees. PRM is funding the U.N. High Commissioner for 
Refugees (UNHCR), the International Organization for Migration (IOM), 
the U.N. Children's Fund (UNICEF), the Red Cross Movement, and other 
humanitarian partners to provide humanitarian assistance. USAID is 
coordinating with State/PRM on response efforts, which has included the 
provision of $7 million in food, nutrition, logistics and coordination 
assistance from USAID's Office of Food for Peace. The Centers for 
Disease Control is also providing ongoing technical assistance, most 
recently with nutrition assessments and analysis. Both State and USAID 
colleagues have provided surge staffing support for this crisis, 
enabling them to more effectively assess the needs from the ground. We 
continue to assess the situation for future funding consideration.
    We are engaging with the Burmese and Bangladeshi Governments to 
work in close cooperation on a coordinated plan for the repatriation of 
displaced populations that would allow for those who have fled to 
Bangladesh or are otherwise internally displaced in Burma to 
voluntarily return to their places of origin in safety and dignity. The 
U.N. is also calling for both governments to facilitate safe, 
dignified, and voluntary returns. U.S. funding supports UNHCR's work, 
including UNHCR's cooperation with the Bangladesh Government to provide 
biometric registration for refugees who have crossed into Bangladesh, 
which can help support eventual voluntary and safe returns.

    Question 6. In USAID Acting Deputy Assistant Administrator 
Somvongsiri's testimony, she mentioned the robust development 
programming that already exists in Bangladesh--what is this programming 
and is the programming being repurposed, if it is not already doing so, 
to help support Rohingya refugees?

    Answer. USAID's robust development programming in Bangladesh 
focuses on agricultural productivity and crop diversity; child and 
maternal health; nutrition; natural resource management; resilience to 
natural disasters; education, governance; labor rights; and the rule of 
law. USAID has been assessing the most pressing short-term and longer-
term development needs of the host communities in Cox's Bazar and 
utilizing our existing programs to provide additional assistance to the 
area where possible. These decisions are based on the flexibility and 
funding available within existing instruments, and assessments of 
specific needs in coordination with the State Department's Bureau of 
Population, Refugees, and Migration and non-USG aid work.
    For example, we are expanding our Counter Trafficking-In-Persons 
activity in Cox's Bazar, as displaced Rohingya in overcrowded camps are 
vulnerable to trafficking, forced marriage and illegal child adoption.
    On health service delivery, we are providing oral rehydration salts 
to prevent Rohingya children from dying from diarrhea. USAID supports 
the Smiling Sun Network of NGO clinics, which includes clinics in Cox's 
Bazar that provide emergency obstetric services and basic health 
services that are accessible to the host communities, including the 
refugees. Another USAID program expands access to and distribution of 
health-related products in Cox's Bazar by providing child health and 
nutrition services and detecting and referring TB cases. Over the past 
several weeks, this program has reported a significant increase in the 
demand for health-related products.
    In recognition of the potential for volatility between the host 
community and refugee populations, USAID has initiated the ``Protecting 
the Human Rights of Rohingya Refugees in Bangladesh'' media activity to 
provide the refugees with useful information and positive messages to 
diffuse tension. This rapid-response activity will also provide 
technical assistance to local media to improve information flow to the 
host community and Rohingya refugees, and community outreach to dispel 
rumors and false information. USAID also intends to conduct a broad-
based, conflict risk assessment to determine the utility of additional 
programming.
    Finally, reflecting the efforts of humanitarian efforts to scale up 
and respond to the urgent needs in Cox's Bazar, a USAID development 
food security program redirected 120 metric tons of commodities to 
augment and diversify the food basket being provided by the World Food 
Program (WFP). These commodities--vegetable oil and lentils, valued at 
over $119,000--are complementing WFP's food distributions for 24,000 
people for a period of two months.
    At this time, USAID does not recommend reallocation of other parts 
of the USAID/Bangladesh portfolio to the Rohingya crisis. Such 
reallocation could undermine broader gains and agreed-upon objectives 
worked out with the Government, and impede significant progress in 
core, critical development areas including food security, child 
mortality, infectious disease and other major challenges facing the 
country, which are already exacerbated by the refugee crisis.

    Question 7. Is the U.S. Government supporting any efforts to try 
and track/confirm the number of IDPs in Rakhine State?

    Answer. The exact number of Rohingya IDPs in Rakhine remains 
unknown due to a lack of access. Since August 25, the only 
international humanitarian actor the Government of Burma has allowed to 
conduct assessments in northern Rakhine state is the Red Cross 
Movement. Recently World Food Programme was granted permission to 
resume activities in northern Rakhine State and is planning a rapid 
assessment, but has not been able to arrive at an overall numbers of 
IDPs to date. There continues to be a caseload of 120,000 IDPs in 
central Rakhine who were displaced prior to August 25. The lack of 
adequate information on the numbers and needs of displaced people 
reinforces the importance of full humanitarian access to northern 
Rakhine State.

    Question 8. What is the United States Government doing to support 
the Government [of] Bangladesh and host communities in Bangladesh to 
mitigate existing or potential tensions that could put displaced 
civilians at further risk?

    Answer. USAID recognizes the potential for conflict between the 
Rohingya and host communities in Bangladesh. Where possible, USAID 
assistance to the Rohingya is also available to host communities, 
demonstrating that assistance is available to all. For example, in 
Cox's Bazar, the joint USAID/DFID Health Service Delivery Project 
supports five clinics that provide emergency obstetric services and two 
``vital'' clinics that provide basic health services. Access to these 
clinics is open, including to the refugee and host communities. U.S. 
Government-funded humanitarian assistance in Bangladesh, including food 
and nutrition support, water and sanitation services, and other 
services, also includes assistance to host communities to reduce or 
mitigate tensions between refugees and the host community. Through the 
contribution to the International Organization for Migration (IOM), PRM 
is supporting the non-governmental organization Solidarites 
International (SI) to address the needs and vulnerabilities of the host 
communities impacted by the humanitarian crisis in Cox's Bazar. SI is 
providing emergency water, sanitation, and hygiene service delivery and 
distribution of basic products in the host community areas most 
affected by the recent influx of Rohingya. This, alongside robust U.S. 
funding for the emergency response, will help mitigate the rise of 
tensions between host communities and refugees. In addition, USAID has 
initiated the ``Protecting the Human Rights of Rohingya Refugees in 
Bangladesh'' media activity to provide refugees with useful information 
and positive messages to diffuse tension. USAID also intends to conduct 
a broad-based, conflict risk assessment to determine the utility of 
additional programming. The U.S. has encouraged the Government of 
Bangladesh to engage with the World Bank and the U.N. on medium- and 
long-term planning for the refugee response and on sustainable 
development to benefit both the host communities and refugees in 
refugee resettlement areas.

                               __________


    Response to an Additional Question for the Record Submitted to 
           Ms. V. Kate Somvongsiri by Senator Robert Menendez

    Question. It is estimated that more than half a million Burmese 
Rohingya have already left the country. Recently, a spokesman for the 
National League For Democracy stated that ``these Muslims are illegal 
immigrants from Bangladesh and this crisis is an infringement of our 
sovereignty.'' It is likely that the Burmese Government will utilize 
every tool available to deny citizenship rights to people eventually 
seeking to return.

   How are you engaging with the Burmese and Bangladeshi Governments 
        about the return of the displaced populations? What is the 
        U.N.'s posture? How are you working with international partners 
        on the ground to respond to these increasing numbers of 
        refugees as well as eventual return?

    Answer. We are engaging with the Burmese and Bangladeshi 
Governments to work in close cooperation on a coordinated plan for the 
repatriation of displaced populations that would allow for those who 
have fled to Bangladesh or are otherwise internally displaced in Burma 
to voluntarily return to their places of origin in safety and dignity. 
The U.N. is also calling for both governments to facilitate safe, 
dignified, and voluntary returns. U.S. funding supports UNHCR's work, 
including UNHCR's cooperation with the Bangladesh Government to provide 
biometric registration for refugees who have crossed into Bangladesh, 
which can help support eventual voluntary and safe returns. The U.S. 
Government is providing funding for the humanitarian response plans of 
U.N. and international NGO partners to provide humanitarian assistance 
to meet the needs of increasing numbers of refugees, while urging the 
Burmese and Bangladeshi Governments to reach agreement on a voluntary 
repatriation process that ensures safe and secure conditions in Rakhine 
State for a sustainable return.


                               __________

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   

         Annex VII.--Statement Submitted by John Sifton, Asia 
                 Advocacy Director, Human Rights Watch

Summary
    Since August 25, 2017, Burmese security forces have carried 
out a campaign of ethnic cleansing against Rohingya Muslims in 
northern Rakhine State. Over half a million Rohingya have fled 
Burma to neighboring Bangladesh to escape killings, arson, and 
other mass atrocities. The Rohingya, effectively denied 
citizenship under Burmese law, have faced decades of repression 
and discrimination. Earlier waves of violence in 2012 
internally displaced about 120,000 in central Rakhine State, 
and small pockets of Rohingya remain in several townships 
there. Violence in late 2016 led to the internal displacement 
of tens of thousands more and some 87,000 fled to Bangladesh 
prior to August 2017. Nearly all the Rohingya remaining in 
Rakhine State now face dire humanitarian conditions, especially 
in the north. Human Rights Watch staff in Bangladesh and Burma 
have been interviewing victims and witnesses to the abuses, 
gathering information from local officials and aid groups, and 
reviewing satellite data and images, and video, revealing the 
scope of destruction. The purpose of this submission is to 
outline some of the findings of that research and analysis and 
provide recommendations to the British government.
Outline of the crisis
    Human Rights Watch has concluded that serious abuses 
amounting to crimes against humanity have been committed by 
Burmese security forces in Rakhine State. Crimes against 
humanity are defined under international law as acts 
``committed as part of a widespread or systematic attack 
directed against any civilian population, with knowledge of the 
attack.'' Types of attacks can include deportation and forced 
population transfers, murder and attempted murder, rape and 
other sexual assault, and persecution.
    Human Rights Watch has documented that since August 25 such 
crimes have occurred in Rakhine State. The perpetrators were 
the Burmese military, on occasion accompanied by local security 
forces or ethnic Rakhine villagers. The victims were ethnic 
Rohingya Muslims, primarily in the three northern townships of 
Rakhine State that border Bangladesh. Specific criminal acts 
included large-scale and widespread assault, murder and 
attempted murder, rape and other sexual violence, looting, and 
arson.
    The attacks occurred in the wake of a set of coordinated 
attacks on August 25 on 30 government outposts by the Arakan 
Rohingya Salvation Army (ARSA), a small group of poorly armed 
Rohingya. Since then, nearly all of the attacks Human Rights 
Watch has documented have involved Burmese government military 
operations using mortars, artillery, anti-personnel landmines 
and small arms against Rohinyga villagers. These troops have 
then assaulted men, women, children, and even babies, who were 
shot, struck, raped, beaten to death, or burned inside their 
homes.
    In almost all cases, victims and witnesses told Human 
Rights Watch that there were no ARSA members in their midst, 
and no armed resistance. Witnesses frequently described whole 
populations of villages fleeing for their lives.
    The consequences of the Burmese military's crimes against 
humanity have been devastating: hundreds and perhaps thousands 
of Rohingya killed and injured; countless women and girls 
suffering severe injuries from sexual violence; massive 
destruction of civilian property; the displacement of well over 
half a million people into Bangladesh; an unknown number 
internally displaced within Burma; and the untold human misery 
of hundreds of thousands of people who have lost family and 
friends and witnessed atrocities, and now live, displaced, in 
extreme vulnerability, in open camps, with few possessions and 
little shelter.
Specific accounts of the atrocities
    It would be impossible to summarize fairly all the 
atrocities described to our staff in Rohingya refugee camps in 
Bangladesh in September and October, and the destruction 
observed from satellite images. A few accounts provided here, 
however, may provide a glimpse into the severity and scope of 
the violence.
    Witnesses and victims in Bangladesh-many of whom show 
injuries from bullets, shrapnel, knives, or fire-described 
Burmese military assaults on their villages. For instance, 
Yasin Ali, 25, said that Burmese security forces attacked his 
village of Reka Para on August 27. Prior to the attack, 
tensions had been building in Reka Para and neighboring 
Rohingya villages as local Rakhine harassed and abused them for 
months. Ali said: ``They would come around to us and say, `This 
is not your land. Don't cultivate this land, and don't dare 
take the food growing on it.' If we went near their lands, they 
would beat us with sticks.''
    During the August 27 attack, all the villagers went into 
hiding. Ali said the women and children were sent further away 
to seek shelter, while the men stayed close by to wait out the 
attack in the hopes that they could quickly return to the 
village after the soldiers left. He said he hid by the 
roadside, about half a kilometer from where the soldiers made 
their approach. He heard what sounded like mortar shells 
hitting the village: ``I heard boom boom boom, and then I saw 
the houses just collapse.'' After a while, he saw the soldiers 
advance toward the village, and from his vantage point, he saw 
that they were carrying small arms and what looked like light 
machine guns. He also said he saw a mortar system on the 
shoulder of a soldier, and some apparent mortar rounds the size 
of a grapefruit.
    Ali said that when the soldiers entered the village, they 
started shooting indiscriminately. He and the other men from 
the village then decided to run away into the hills for 
shelter. From the hills, he saw a helicopter painted olive 
green circle his village four times, and saw something being 
dropped from the helicopter after which the houses in the 
village caught fire.
    Momena, 32, fled her village of Kirgari Para on August 26 
with two of her three children. She said that soldiers had 
previously attacked the village during the military operations 
in late 2016, but the situation in her village had settled down 
since then. She described the events that prompted her to flee:


          I heard the sounds of fighting around 4 p.m. on 
        Friday [August 25]. There was a lot of noise, worse 
        than before. I saw them [the soldiers] myself as they 
        entered my village. I don't know how many there were 
        but it looked like a lot to me. I fled with the other 
        villagers and we sheltered in the jungle overnight. 
        When I returned to the village the next morning, after 
        the soldiers had left, I saw about 40 to 50 villagers 
        dead, including some children and some elderly. All had 
        knife wounds or bullet wounds--some had both. My father 
        was among the dead; his neck had been cut open. I was 
        unable to do last rites for my father, I just fled.


    Momena said she had to leave her husband and 10-year-old 
son behind. She has had no news of them since then. Her husband 
has no mobile phone and other villagers she is in contact with 
have heard no news of either of them. She heard that her mother 
is alive but has no idea where she is or how she is.
    From her vantage point while hiding in the jungle, Momena 
said she could see some of the houses in her village burning at 
night. She believes soldiers set fire to the houses as a 
warning to the villagers.
    Momena said she did not know of any armed Rohingya 
militants in the village. She had heard some youth in the 
village talking about resisting, but she never saw anyone take 
any action on this, there was just talk. She said many young 
Rohingya men fled into the jungle after the attack.
    In addition to bodies found in her village, Momena said she 
saw several bodies of children in the Naf River at one of the 
crossing points into Bangladesh.
    One of the worst atrocities Human Rights Watch has 
documented occurred in Maung Nu, in Buthidaung Township, after 
ARSA militants attacked a checkpoint manned by the Border Guard 
Police (BGP) on August 25 in Hpaung Taw Pyin, just north of 
Maung Nu. Human Rights Watch spoke with 14 survivors and 
witnesses from Maung Nu and surrounding villages. The 
witnesses, now refugees in Bangladesh, said that after the ARSA 
attack, they fled their villages fearing retaliation. Several 
hundred gathered in a large residential compound in Maung Nu.
    The witnesses described how several Burmese soldiers 
entered the compound and took several dozen Rohingya men and 
boys hiding in buildings into the courtyard, bound their hands 
behind their backs, and beat them, stabbed and slashed them 
with long knives, and shot at them with rifles. Others were 
killed as they tried to flee. The soldiers then loaded the 
bodies--some witnesses said a hundred or more--into military 
trucks and took them away.
    Abdul Jabar, 60, said the soldiers made some of the men 
kneel down as they struck them with the butts of their rifles 
and kicked them repeatedly before killing them: ``[T]hey killed 
people from the back with machetes and they also fired on them 
with their guns.''
    Mohammad Ayas, 29, said that he managed to hide in the 
rafters of the house and saw soldiers kill numerous people: 
``They are slaughtering them just like they are clearing the 
jungle with their thin, sharp, and long knives.''
    Muhamedul Hassan, 18, described how a dozen soldiers took 
him and two male relatives, Mohammad Zobair and Foyas, from a 
house to a nearby courtyard. Hassan said that when they got 
there, there were hundreds of men and boys tied up. He said:


          Four soldiers took [me and my relatives] to the 
        corner of the courtyard and shot us each twice in the 
        back. I lost consciousness. When I woke up, I saw many 
        men still tied and [the soldiers] were still killing 
        people. Many were stabbed to death. When I tried to 
        flee I was shot in the chest but was able to escape.


    Muhamedul showed Human Rights Watch his bullet wounds. He 
said that in addition to the two executed beside him, nearly 30 
more male relatives were killed.
    Witnesses also described seeing children executed. Khotiaz, 
28, recounted the killing of her nephew: ``When Baju entered 
the room, there was my nephew, Mohammod Tofail. He was 10 years 
old. He was a student of class two. First Baju shot him in the 
head, his skull shattered into four pieces. Then he fell down. 
I saw there were brain and blood on the floor.''
    Mustafa, 22, said: ``There was a pit with [the bodies of] 
10 to 15 children, all under 12 years old. They were all young 
children hacked to death. I recognized four of the bodies: 
Hakim Ali, 9; Naim, 8; one child from Pondu Para, who was about 
10; and Chau Mong, who was 7.''
    Witnesses said that after the killings, the soldiers 
gathered the bodies on green tarps and loaded them onto 
pushcarts, then brought the bodies to military vehicles. The 
removal of bodies took hours, several witnesses said.
    ``I saw outside that there were piles of dead bodies.'' 
Mustafa said. ``I could see the soldiers using carts [to move 
the bodies] and I recognized one of the carts was mine.'' 
Mustafa said he heard the sounds of the trucks and vehicles for 
four hours.
    Human Rights Watch has also documented accounts of another 
massacre in the township of Tuljtoli, in which possibly 
hundreds of Rohingya were killed.
Sexual violence and rape
    In many of the attacks and massacres Human Rights Watch 
documented in Rakhine State occurring in August-September 2017, 
we found numerous cases of rape and other forms of sexual 
violence against Rohingya women and girls. Reported abuses were 
brutal, humiliating, and traumatic.
    Human Rights Watch interviewed 52 Rohingya women and girls 
who had survived horrific abuses by Burmese military and other 
security personnel since August 25. Thirty of these women and 
girls were rape victims. Most of the other interviewees had 
been forced to flee in late stages of pregnancy, had given 
birth on their journey, or had witnessed their young children 
being killed by security forces. Human Rights Watch interviewed 
rape survivors from 19 different villages, mostly in Maungdaw 
and Buthidaung townships.
    Human Rights Watch found that women and girls were raped 
and sexually assaulted both during major arson attacks on 
villages and in the weeks running up to these major attacks 
after repeated harassment. In every case described to us, the 
perpetrators were uniformed members of security forces, almost 
all military personnel. They wore either camouflage uniforms or 
plain green uniforms, or a mix of both. All the rapes reported 
to Human Rights Watch were gang rapes, involving two or more 
perpetrators, and in every case except for one the victim was 
penetrated by more than one attacker. In many of the cases 
women and girls reported being raped by six or more 
perpetrators.
    A 15-year-old from Hathi Para village in Maungdaw Township 
said she was dragged across the ground from her home, tied to a 
tree and then raped from behind by 10 soldiers. ``They then 
left me where I was. When my brother and sister came to get me 
I was lying there on the ground, they thought I was dead,'' she 
said.
    Six rape survivors said that they were among a group of 
women and girls who were gathered together and then raped by 
soldiers. ``Maybe we were some 30 women. If a woman said 
anything she was beaten. They [military] would pull women to 
the side and just rape her there so everyone could see,'' a 20-
year-old woman from a Buthidaung township village said.
    The gang rapes often resulted in serious genital injuries 
and bleeding which worsened as fleeing women were forced to 
walk for days, including up and down steep hills. Several of 
the victims reported ongoing physical and mental health 
problems at the time of the interview, including urinary tract 
infections, vaginal bleeding, pain, poor sleep, poor appetite, 
and intrusive thoughts.
    Victims and witnesses said that security forces often raped 
women and girls in their homes, and often in sight of their 
children. Other women and girls were raped as they fled 
villages. Human Rights Watch documented the particularly cruel 
nature of these attacks: women reporting rapists laughing, 
kicking or hitting them or their children, and biting or 
pressing the barrel of guns hard against their breasts.
    Although our research focused on identifying and 
interviewing rape survivors, a high proportion of those we 
spoke to had also witnessed killings of family members. The 
killings of their children were especially brutal and 
traumatic. A 30-year-old woman from Ta Mi village in Buthidaung 
township said: ``I have three kids now. I had another one 
Khadija, she was 5-years-old. When we were running from the 
village she was killed in the attack. She was running last, 
less fast, trying to catch up with us. A soldier swung at her 
with his gun and bashed her head in, after that she fell down. 
We kept running.''
    Other women were forced to leave behind children. ``I 
grabbed one, I left one,'' one woman said, describing the 
moment her house caught on fire and began collapsing around 
her.
    Human Rights Watch interviewed other women who had lost 
their husbands, either to killings or what appear to be 
arbitrary arrest by security forces. Their fears included not 
only the intrusive memories of the terror they lived through 
but also anxiety over how to cope as a single parent with 
sometimes five or more children while in a refugee camp in 
Bangladesh.
    Ethnic Rakhine villagers backed by the security forces 
often robbed women and girls, including in ways that were 
sexually abusive, for example grabbing at or fondling their 
breasts while searching for money kept in their blouses. Women 
described weeks of harassment leading up to major attacks as 
extremely stressful, they never knew whether the Rakhine 
villagers or security forces would come and what they would do.
    The Burmese government has repeatedly refused to 
acknowledge these abuses despite a strong and growing evidence 
base. In early September, Rakhine State minister for border 
security, Col. Phone Tint, denied reports of military abuses 
involving sexual violence. ``Where is the proof?'' he asked. 
``Look at those women who are making these claims--would anyone 
want to rape them?''
    These types of denial are not new. In December 2016, the 
Burmese government contested reports of the military's use of 
sexual violence in a press release published under the 
headline, ``Fake Rape.'' Human Rights Watch and other groups 
documented widespread rape and other sexual violence by 
security forces during the military operations starting in 
October 2016.
What to do now
    In a world already beset with large-scale human tragedies, 
the Rohingya crisis-both the crimes against humanity committed 
in Burma and the massive new displacement into Bangladesh-
comprises one of the world's worst human catastrophes.
    While the origins and root causes of the Rohingya crisis 
deserve attention, the immediate task is to prevent further 
abuses and protect those still at risk, and feed, shelter, and 
care for the displaced. There is also a need to negotiate a 
process that would allow the Rohingya to safely and voluntarily 
return to their homes in Burma, and for those who cannot or 
will not return, determine how they can be settled in 
Bangladesh or resettled to third countries.
    In dealing with the Burmese government, two things are 
clear:


    First, it would be a mistake to focus criticism primarily 
on Burma's de facto leader, Aung San Suu Kyi, disappointing as 
she has been in responding to the crisis. She and other 
government officials have largely denied--and are still 
denying--allegations of atrocities, calling them fabrications. 
In early September, Aung San Suu Kyi spoke of an ``iceberg of 
misinformation'' about abuses, and in a speech on September 19 
appeared alarmingly ignorant of the overall situation, noting 
at one point: ``We want to find out why this exodus is 
happening.'' In subsequent statements, she has noticeably 
failed to acknowledge any wrongdoing by government forces.
    Yet it is Burma's military leaders who are in charge of the 
forces committing the abuses, and are in the best position to 
end them. In debating next steps on the Rohingya crisis, 
concerned governments need to focus primarily on the military, 
and consider what measures might best impact its actions.

    Second, it is clear that in dealing with the Burmese 
military-and the government at large-condemnations and pleas 
are not enough.
    Burma's military leaders are in a state of denial--or 
worse. The commander-in-chief of the military, Sr. Gen. Min 
Aung Hlaing, recently made statements suggesting that the 
Rohingya do not even exist, that Burma's Rohingya population 
are in fact ``Bengali,'' and that ongoing military operations 
are aimed at ``unfinished business'' from the Second World War. 
These are divisive, unsupported allegations that the Rohingya, 
despite living in the country for generations, are foreigners. 
They are clear allusions to mass killings of Rohingya that 
occurred in 1942 and are reflected in the killings and arson 
that have occurred in recent years.
    In another speech on September 21, Min Aung Hlaing 
essentially embraced that the campaign had comprised ethnic 
cleansing, referring to ``national races,'' a term from Burmese 
law referring to a list of officially recognized indigenous 
ethnic groups--a list that does not include Rohingya. 
``Regarding the rehabilitation of villages of our national 
races, for the national races who fled their homes [mostly 
ethnic Rakhine Buddhists], first of all they must go back to 
their places,'' he said. ``The important thing is to have our 
people in the region. It's necessary to have control of our 
region with our national races. We can't do anything if there 
are no people from our national races . . .  that is their 
rightful place.''


    These comments reveal that Burma's military leaders are not 
communicating on the same wavelength as the rest of the 
international community. They are not prepared to appreciate or 
even hear its verbal denunciations and demands. So the time has 
come to impose targeted sanctions and other measures that carry 
a real practical or financial cost on Burma's senior military 
command. It may be impossible to convince the military 
leadership to care about the Rohingya, but it might be possible 
to stop them from killing or displacing any more Rohingya--if 
the consequences of continuing such abuses create a burden that 
military leaders don't want to bear.
    The United Nations Security Council, and concerned member 
states bilaterally, need to impose targeted sanctions on 
Burmese military leaders and key military-owned enterprises, 
including travel bans and restrictions on access to financial 
institutions, and impose a comprehensive military embargo on 
Burma. In many countries, a sanctions framework is already in 
place, and it was not that long ago that targeted sanctions 
were lifted in recognition of the country's efforts to 
transition to democracy.
    The Security Council should also insist that persons 
responsible for grave abuses be held accountable for their 
crimes, and press Burmese authorities to cooperate with the 
U.N. Fact-Finding Mission established by the U.N. Human Rights 
Council and grant unfettered access to its staff to Burma, 
including Rakhine State. The council should send a clear 
message that it stands ready to take additional steps to ensure 
justice including through the International Criminal Court, and 
urge member states to pursue other mechanisms that might 
provide justice for recent abuses.
    These measures are not merely meant to deter more 
atrocities. Sanctions should be glued to demands that 
multinational organizations and governments have made, setting 
them as benchmarks the Burmese military needs to meet for 
sanctions to be relaxed: stopping abuses, allowing humanitarian 
access to people in need, allowing access by the U.N. Fact-
Finding Mission and journalists and other independent monitors, 
allowing refugees to safely and voluntarily return, and 
prosecuting those responsible for abuses, including as a matter 
of command responsibility. Prior to the recent crisis, the 
Burmese government pledged to take other steps laid out in the 
recommendations of the recent Advisory Commission on Rakhine 
State led by Kofi Annan; the military's cooperation on that 
should be another benchmark.
    Concerned governments shouldn't wait for the United Nations 
to act, however. European Union member states, including the 
United Kingdom, as well as the United States, Australia, 
Canada, and ASEAN member states, should impose or re-impose 
bilateral sanctions on military commanders and military-owned 
enterprises, and expand existing arms embargoes to include all 
maintenance, assistance, training and cooperation with the 
Burmese army. The U.S. should place senior military leaders and 
key military-owned enterprises on the ``Specially Designated 
Nationals'' list that restricts travel to the U.S. and access 
to U.S. companies and financial institutions. The EU and its 
member states should renew their versions of the same 
restrictions.
    For those who worry that tough responses may worsen the 
situation or weaken the international community's influence, 
one could ask: What influence? And how much worse can things 
get? What is the alternative plan for compelling the Burmese 
military to stop its abuses?



                              ----------                              


 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
